<html>
<title> - JAMES WEBB SPACE TELESCOPE: PROGRAM BREACH AND ITS IMPLICATIONS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                      JAMES WEBB SPACE TELESCOPE: 
                  PROGRAM BREACH AND ITS IMPLICATIONS

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                    JULY 25, 2018 AND JULY 26, 2018

                               __________

                           Serial No. 115-72

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                       _________ 

             U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-882 PDF           WASHINGTON : 2018             
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
                   
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           CONOR LAMB, Pennsylvania
BARRY LOUDERMILK, Georgia            JERRY McNERNEY, California
RALPH LEE ABRAHAM, Louisiana         ED PERLMUTTER, Colorado
GARY PALMER, Alabama                 PAUL TONKO, New York
DANIEL WEBSTER, Florida              BILL FOSTER, Illinois
ANDY BIGGS, Arizona                  MARK TAKANO, California
ROGER W. MARSHALL, Kansas            COLLEEN HANABUSA, Hawaii
NEAL P. DUNN, Florida                CHARLIE CRIST, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
DEBBIE LESKO, Arizona
MICHAEL CLOUD, Texas
                            C O N T E N T S

                             July 25, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements


Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..     4
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     8
    Written Statement............................................    12

Statement by Representative Brian Babin, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    14
    Written Statement............................................    16

Statement by Representative Ami Bera, Ranking Member, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    19
    Written Statement............................................    21

                               Witnesses:

Hon. Jim Bridenstine, Administrator, NASA
    Oral Statement...............................................    22
    Written Statement............................................    25

Mr. Tom Young, Chairman, JWST Independent Review Board
    Oral Statement...............................................    31
    Written Statement............................................    33

Discussion.......................................................    38

                             July 26, 2018

                           Opening Statements


Statement by Representative Lamar Smith, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    74
    Written Statement............................................    76

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    78
    Written Statement............................................    81

Written by Representative Brian Babin, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    83

Written Statement by Representative Ami Bera, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    85

Written Statement by Representative Barbara Comstock, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   110

                               Witnesses:

Mr. Wesley Bush, Chief Executive Officer, Northrop Grumman
    Oral Statement...............................................    86
    Written Statement............................................    89

Mr. Tom Young, Chairman, JWST Independent Review Board

Discussion.......................................................   104

            Appendix II: Additional Material for the Record

Documents submitted by NASA......................................   134

Documents submitted by Northrop Grumman..........................   135


                      JAMES WEBB SPACE TELESCOPE:


                  PROGRAM BREACH AND ITS IMPLICATIONS

                              ----------                              
WEDNESDAY, JULY 25, 2018


                      AND THURSDAY, JULY 26, 2018

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:05 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Smith. The Committee on Space, Science, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Good morning, and welcome to today's hearing entitled 
``James Webb Space Telescope: Program Breach and its 
Implications.'' I'll recognize myself for an opening statement.
    Today, we will hear from Administrator Bridenstine on 
NASA's plans to ensure that the James Webb Space Telescope is a 
success. We will also hear from Tom Young on the findings and 
recommendations of the JWST Independent Review Board.
    Tomorrow, at the second part of the hearing, Northrop 
Grumman's CEO, Mr. Wes Bush, will testify. We will learn more 
about why Northrop failed to deliver JWST on budget and on 
schedule and what can be done about it.
    Welcome to Jim Bridenstine, who is testifying for the first 
time since leaving the Committee to become NASA's 
Administrator. He began his job with our high expectations, and 
he has already exceeded them. Jim, that's the highest 
compliment I can pay you.
    Mr. Bridenstine. Why, thank you.
    Chairman Smith. We can be confident that he is striving to 
tackle the program management issues NASA faces, specifically 
those associated with the James Webb Space Telescope.
    Starting on March 26, 2018, NASA began notifying this 
committee about the James Webb Space Telescope's cost and 
schedule breaches. Now that the Independent Review Board has 
completed its work, we should review the decades-long JWST cost 
overruns and schedule delays. And if Members will take a look 
at this chart that's on the screen in front of us.
    [Slide.]
    Chairman Smith. This chart chronicles JWST's substantial 
cost growth and launch schedule delays starting with the 1996 
initial projections in the lower-left-hand corner all the way 
to the IRB's 2018 projection in the upper-right corner. It is 
truly staggering to behold how this space telescope's cost and 
schedule projections went from costing the same as a space 
shuttle mission--around half-a-billion dollars with an original 
launch date in 2007--to now becoming an expenditure exceeding 
$9 billion with a new launch goal in March 2021. This is 19 
times the original cost and a delay of 14 years. It doesn't get 
much worse than that.
    The cost of delaying the launch again will add almost 
another billion dollars to the total program cost. The $8 
billion development cost cap set in 2012 will be exceeded by 
$803 million. With other program costs added in, the IRB now 
estimates the total cost at over $9.6 billion.
    The IRB also stated that technical complications and 
unclear reporting roles, responsibilities, and lines of 
communications greatly impacted the development schedule and 
its associated cost increases. Mr. Young will provide details 
during his testimony. We will discuss options going forward, 
such as the contractor watch list designation contained in the 
bipartisan NASA Authorization Act of 2018.
    I support the continuation of JWST to mission completion 
and appreciate Administrator Bridenstine's efforts to improve 
contractor performance. Going forward, Congress needs to have 
the necessary confidence in NASA's contractors to put us on the 
right path at a reasonable cost. Anything short of that will 
undermine Congressional confidence in contractors' ability to 
deliver on their promises.
    Usually, when government contractors make mistakes, no one 
is held accountable. The mistakes ``just happened'' or ``were 
unavoidable'' or ``won't happen again.'' But in every case, the 
American people pick up the bill. We often forget there is no 
such thing as federal dollars. It's the American taxpayers' 
hard-earned money. If space exploration is going to continue to 
earn the public's support, then contractors will have to 
deliver on time and on budget. If they cannot, they should be 
penalized.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, is recognized 
for hers.
    Ms. Johnson. Thank you very much. Good morning to everyone 
and, Mr. Chairman, I thank you for holding this hearing on the 
James Webb Space Telescope program breach and its implications. 
Excuse me.
    Welcome to our witnesses, to the Administrator Bridenstine 
and Mr. Young. We appreciate your commitment to this high-
priority science mission.
    As a powerful observatory that will be 100 times more 
sensitive than the Hubble Space Telescope, the James Webb Space 
Telescope will be a gateway to unlocking the origins of the 
universe. Further, like Hubble, it will also be an inspiration 
for our next generation of scientists, engineers, and citizens 
and a symbol of American--America's leadership in space, 
science, and exploration.
    I appreciate the tireless commitment and dedication of NASA 
to its industry, international, and academic partners, also for 
their work on this project.
    The hardware for the mission is now complete, and the 
observatory is undergoing integration and testing. Getting to 
this point has not been easy. A 2010 review of the project 
identified significant costs in growth--schedule growth while 
subsequent re-baseline plans help keep the program on track for 
many years. Today, we will discuss another series of setbacks.
    I want to commend NASA for establishing the Independent 
Review Board. The Independent Review Board and I want to 
recognize the members for contributing their time and expertise 
and Mr. Young for his leadership in chairing the effort.
    The message is clear. Mission success for the James Webb 
Space Telescope needs to be the priority, and finding potential 
embedded problems and minimizing the impact of human errors 
must be a focus going forward.
    That said, the Independent Review Board was also clear on 
the fact that both NASA and the prime contractor for the 
mission, Northrop Grumman, have contributed to the 29-month 
schedule delay and the $1 billion cost increase to the project. 
In particular, the review board found complex and confusing 
management reporting on the project and inconsistent, 
uncoordinated communications on the James Webb Space Telescope 
within NASA and with external stakeholders, including Congress. 
This is not good news, especially since some of these problems 
were identified in the 2010 review.
    I hope that today's hearing will inform us on how NASA 
plans to ensure that these and the other findings and 
recommendations of the Independent Review Board are 
successfully implemented and how lasting processes are being 
put in place to prevent these problems from occurring on other 
NASA projects.
    I am also concerned about the potential collateral damage. 
I'm eager to hear from the Administrator on how NASA plans to 
ensure the health and balance of the astrophysics program, 
including small missions research and analysis and the next 
high-priority decadal survey mission--excuse me--the WFIRST, 
given the additional resources that will be needed to complete 
the James Webb Space Telescope.
    And as I've said on many occasions before, inspiring and 
challenging projects such as the James Webb Space Telescope are 
an investment in our future, and the review board found that it 
is an observatory with incredible capacity and awesome 
scientific potential. And while it is up to this committee to 
carry out the oversight of the taxpayers' significant 
investment in this project, we must not lose sight of the 
importance of bringing the James Webb Space Telescope to a 
successful outcome.
    And, Mr. Chairman, I have a letter I'd like to submit for 
the record.
    Chairman Smith. Okay.
    Ms. Johnson. This is a letter of support of the project 
from the American Astronomical Society.
    Chairman Smith. Without objection, the letter from the 
American Astronomical Society will be made a part of the 
record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Ms. Johnson. Thank you very much. I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Smith. Thank you, Ms. Johnson.
    And the gentleman from Texas, the Chairman of the Space 
Subcommittee, is recognized for his opening statement.
    Mr. Babin. Thank you very much, Mr. Chairman. And thank you 
witnesses, expert witnesses, for being here as well.
    As Chairman of the Space Subcommittee and proud 
representative of Johnson Space Center, I'm a very tireless 
advocate for NASA. I strongly believe in the mission of NASA, 
and I commend the tremendous dedication of the NASA and 
industry team under Mr. Bridenstine and the rest of the team. 
However, as Members of this Committee, we have a responsibility 
to every taxpayer to ensure that government agencies, including 
NASA, are being good stewards and effective at managing our 
resources with which they are entrusted.
    Today's hearing will focus on the serious issues associated 
with the James Webb Space Telescope program breach and its 
implications, the Independent Review Board's analysis and 
recommendations, and the coming debate over Congressional 
reauthorization of JWST. Chairman Smith summarized the IRB's 
findings and recommendations, so I want to use this opportunity 
to discuss NASA's lost opportunities due to flagship program 
cost overruns.
    As the Space Subcommittee Chairman, I focus on the NASA 
budget in its entirety and every project and program in the 
agency's portfolio, particularly those where budget limitations 
force difficult decisions on reducing specific project budgets 
or whether we can even fund them at all. Please give your 
attention to the chart on display.
    [Slide.]
    Mr. Babin. The Committee surveyed NASA's science portfolio 
over the last few fiscal years to identify project budget 
reductions and unfunded requests due to limitations. These 
projects are listed by fiscal year starting on the left there 
with fiscal year 2013 all the way up through fiscal year 2019. 
You can see those.
    Now, with the fiscal year 2018 coming to a close shortly 
and the IRB's announced JWST cap breach of $803 million in 
development costs, this chart reflects the reality of the 
breach going into fiscal year 2019 budget planning. In terms of 
lost opportunities and NASA's budgetary trade space, it is 
important to know the full impact of JWST breach on NASA and 
the American public as a whole.
    So we'll bring up the next one.
    [Slide.]
    Mr. Babin. The $803 million needed to fund the JWST cost 
breach could fund nearly every one of NASA's science funding 
shortfalls from fiscal year 2013 all the way up through fiscal 
year 2016. These projects include earth science and education 
projects greatly promoted by our Democratic colleagues on the 
Committee.
    And looking forward to fiscal year 2019 and NASA's future 
flagship program plans, the cost issues with the Wide Field 
Infrared Survey Telescope, or WFIRST, will become a subject of 
debate right alongside the JWST Congressional reauthorization. 
The fiscal year 2018 omnibus required an updated lifecycle cost 
estimate for WFIRST, and NASA's report concludes the estimated 
cost range is $3.3 billion to $3.9 billion. This lifecycle cost 
estimate exceeds the NASA-imposed cost cap of $3.2 billion 
included in the bipartisan NASA Authorization Act of 2018.
    To give perspective to the funding dilemma presented by 
JWST and WFIRST cost issues, NASA's WFIRST estimate includes a 
request for $371 million, which is now reflected on the fiscal 
year 2019 chart.
    Thank you.
    [Slide.]
    Mr. Babin. The bipartisan NASA Authorization Act of 2018 
seeks to limit flagship program overlap to reduce NASA's risk 
of becoming overwhelmed by WFIRST development before JWST is 
operational in space. Thus, it is my hope the IRB report and 
our witness panel testimony will shed some light on lessons 
learned with JWST and lead to a successful flight and 
operations in March 2021. We do not want these mistakes 
repeated during the development of WFIRST.
    Congress needs to understand the unvarnished truth of the 
status of these programs today, as well as the plan going 
forward. Decisions made now can have long-lasting implications 
on future missions. We need to know that there is not a 
systemic or a fundamental management problem with how NASA 
plans and executes these larger strategic missions.
    And I want to thank the witnesses here today, helping us to 
better understand where we are and how we plan to move forward, 
and I look forward to your testimony.
    I yield back.
    [The prepared statement of Mr. Babin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Smith. Thank you, Mr. Babin.
    Mr. Babin. Yes, sir.
    Chairman Smith. The gentleman from California, Mr. Bera, 
the Ranking Member of the Space Subcommittee, is recognized for 
his opening statement.
    Mr. Bera. Thank you, Mr. Chairman, and thank you to the 
Ranking Member for holding this hearing.
    In many ways, these hearings are a continuation of hearings 
that the Space Subcommittee had last month on NASA costs and 
schedule overruns, and it's always good to see our former 
colleague, Administrator Bridenstine, on that side of the 
podium.
    I won't reiterate what both the Chairman and Ranking Member 
and the Chairman of the Subcommittee have gone through, but I 
do think what the cost overruns suggest and remind us is the 
complexity of mentioning when you're thinking about doing 
something that you've never done, the scientific and 
technologic complexity. And, you know--and it also highlights 
the important role that Congress has in our oversight role in 
making sure that, as we're budgeting and thinking about those 
future priorities, we're doing so with the most accurate 
information.
    As we think about-- I'm someone--I think along with a lot 
of my colleagues--that puts a lot of faith in the decadal 
survey and in an objective way kind of laying out what our 
priorities are. And in that decadal survey when we think about 
WFIRST and think about future projects, in that context I'm 
going to be curious to hear both today and tomorrow what we can 
learn in terms of if we look backwards on Webb in terms of 
budgeting, in terms of timeline, that will help inform us going 
forward.
    I do think there will be robust dialogue and discussion as 
we look at future missions, future budgets and allocations 
knowing that this is a pretty significant cost overrun. One 
billion dollars is a lot of money. So it is what can we learn.
    At that Space Subcommittee hearing, we also started to talk 
about, as NASA contracts out with other commercial vendors and 
others to do a lot of the important and necessary work, what 
are newer types of contracts that do share some of the risk 
there and--on deliverables. You use them in many other 
industries. Are those even viable in this context when you're 
trying to do something that you've never done before and what 
does that look like? And I do think, over this Congress but 
then also into future Congresses it will be important for us to 
have that conversation as we think about prioritizing.
    And then just one last statement. I think it is worth 
noting that, despite the headline-grabbing finding of schedule 
and cost growth, the IRB's concluded that James Webb should 
continue based on its extraordinary scientific potential and 
critical role in maintaining U.S. leadership in astronomy and 
astrophysics. And, you already have a lot of the sunk costs in 
there, so it would be shortsighted on our part not to say, you 
know, let's finish this incredibly important project.
    But again, as we go forward, it'll be interesting to hear 
from NASA, as well as the contractors and subcontractors what 
can we learn from the Webb experience that helps better inform 
us going forward as Members of Congress.
    So thank you. And with that, I'll yield back.
    [The prepared statement of Mr. Bera follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Smith. All right. Thank you, Mr. Bera.
    Our first witness today is Mr. Jim Bridenstine, 
Administrator of NASA. A former colleague and Member of the 
Science Committee and its Space Subcommittee, Mr. Bridenstine 
now serves as a Senior Space Science Advisor to the President 
and oversees agency operations.
    Prior to his election to Congress, Mr. Bridenstine was the 
Director of Tulsa's Air and Space Museum. He completed a triple 
major at Rice University and earned his Master's of Business 
Administration at Cornell University.
    Our second witness is Mr. Tom Young, Chairman of the 
Independent Review Board. In this role, Mr. Young led a team of 
11 members to conduct a review of the JWST program. Mr. Young 
is the former Director of NASA's Goddard Space Flight Center, 
as well as the former President and Chief Operating Officer of 
Martin Marietta Corporation.
    He earned both a bachelor's degree in aeronautical 
engineering and a bachelor's degree in mechanical engineering 
from the University of Virginia and a Master's of Management 
degree from MIT.
    We welcome you both, look forward to your testimony. And, 
Mr. Bridenstine, if you'll begin.

               TESTIMONY OF HON. JIM BRIDENSTINE,

                      ADMINISTRATOR, NASA

    Mr. Bridenstine. Thank you, Chairman Smith. It's an honor 
to be here. Chairman Smith, Chairman Babin, Ranking Member 
Johnson, Ranking Member Bera, thank you all for your leadership 
on this Committee. Thank you for your leadership with the James 
Webb Space Telescope quite frankly. And, when I was on your 
side there back in March, NASA came to Congress and let 
everybody know that we're up against a cost overrun and of 
course an increase in schedule. And at that moment I knew that 
I would be sitting on this side coming back and testifying 
before the Committee that I used to serve on.
    So here we are, and I want to share with you some of the 
things that I've learned in my time here at NASA. First of all, 
the Independent Review Board was called for by NASA at a time 
when we were having trouble with the spacecraft element of the 
James Webb Space Telescope. When I say the spacecraft element, 
there's really two elements. One is the optical telescope 
element, which includes all the scientific capabilities, and 
then really the bus.
    And if you go back in time, we really believed at NASA that 
the most difficult part of the James Webb Space Telescope 
would, no kidding, be all of the scientific instruments and the 
capabilities on that side of the spacecraft. The spacecraft 
element seemed to be a little bit more routine.
    There's one big difference in this spacecraft element than 
every other spacecraft that we've ever developed, and that is 
that we need a sunshield. On one side of the spacecraft we need 
to be down around 7 degrees Kelvin, which is near absolute 
zero. That's an incredibly cold temperature and necessary in 
order to use the infrared side of this telescope, which is 
really just--it's detecting heat signatures from galaxies that 
go back to the very dawn of time if you will, the very 
beginning of the universe. So in order to do that, it has to be 
extremely cold.
    So that--we need a heat shield. And that heat shield is a 
very complex, very dynamic piece of equipment that is unique in 
this particular spacecraft. And it has five layers, and the--in 
order to deploy it, think of five sheets the size of a tennis 
court stacked on top of each other, and on one side of this 
heat shield the temperatures are going to be almost, you know, 
300 degrees Fahrenheit and on the other side minus 390 degrees 
Fahrenheit separated by maybe just a couple of feet. That's a 
very impressive scientific achievement once it's complete.
    But to deploy that heat shield is very complex and very 
challenging, and there's a whole lot of single points of 
failure. And we have to test it. And NASA was going through a 
process of deploying that heat shield and then folding it back 
for the purpose of testing. And in that process we discovered--
NASA discovered--I wasn't there at the time, but NASA 
discovered that this is going to take a lot longer. We were 
very optimistic in the amount of time that we believed that it 
would take to test this. Ultimately, that proved to be 
incorrect.
    And during the course of this, NASA said we need to have an 
Independent Review Board to--and I want to be really clear. 
Nobody likes Independent Review Boards. They are not fun. They 
are not fun for NASA, they are not fun for the contractor. But 
NASA called for an Independent Review Board on itself because 
of the delays and the cost overruns that we got on James Webb.
    During the Independent Review Board, there was more testing 
being conducted and embedded problems were found in some human 
errors were found that once again delayed it during the course 
of the Independent Review Board. So that's how we came to the 
conclusion that we needed to really do a re-planning, and that 
re-planning has been done and we're looking now at a launch 
date of March 30 of 2021 and a cost overrun of about $800 
million. So it's gone from a development cost of $8 billion to 
$8.8 billion and a total lifecycle cost of $8.8 billion up to 
$9.6 billion. These are massive increases, and I understand 
that.
    It's also true--and I want to be really clear about what 
we're doing here. And Ranking Member Bera I think hit the nail 
on the head. We are doing things that have never been done 
before, and we are doing things that nobody on the face of the 
planet other than the United States and our European, you know, 
supporters, the European Space Agency has instruments on this 
telescope. This has never been done before in the history of 
the world, and it really sets the stage for who in the world is 
the leader in astrophysics and these kind of capabilities. And 
only the United States of America could accomplish this. That's 
where we are.
    I also want to be clear that we are going to change how we 
understand the universe. We're going to see very--all the way 
back to the very beginning of the universe, what we call cosmic 
dawn, the very first light from the beginning of the universe. 
And the reason that this telescope is an infrared is because 
the universe is expanding, all the time expanding. In fact, 
it's expanding at an accelerating rate, and we're trying to 
understand, why is that happening?
    But when you see back to the very beginning, cosmic dawn, 
you're talking about, as the universe expands, those 
wavelengths lengthen, so instead of being able to detect 
optical light, we're going to be looking at infrared light. And 
that gives us a requirement to have this extremely cold 
cryocooled antenna that can see back that far basically 
detecting heat signatures from light from the very beginning of 
dawn.
    We're also going to be able to see inside of other galaxies 
in ways that we've never seen before. We're going to be able to 
look at the atmospheres of exoplanets. This is also I think an 
important point. If you go back in time when we started this 
project, we did not even know that exoplanets existed. Now, we 
know that there are thousands of exoplanets, planets maybe even 
like Earth orbiting other stars in our galaxy. We're going to 
be able to use this telescope with a spectrometer to 
understand, what are the atmospheres of this planet like, and 
are they capable of hosting life? So this is a tremendous 
capability that we're bringing to bear that, again, nobody else 
on the planet can do.
    So I want to reemphasize how important this mission is, and 
the work that this committee has done helping us get to this 
point has been amazing. It's not comfortable to come back and 
have to testify on cost overruns and of course schedule delays, 
but at the end, my testimony to you is that I really believe 
that this will be worth it.
    And I look forward to answering your questions, and I 
appreciate all of you having me here today.
    [The prepared statement of Mr. Bridenstine follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Smith. Thank you, Mr. Bridenstine.
    Mr. Young?

             TESTIMONY OF MR. TOM YOUNG, CHAIRMAN,

                 JWST INDEPENDENT REVIEW BOARD

    Mr. Young. Chairman Smith and Ranking Member Johnson and 
Committee Members, I'm pleased to present the results of the 
Independent Review Board evaluation of the James Webb Space 
Telescope mission.
    The IRB charter established by NASA require that we 
evaluate all factors influencing JWST success. Our report is 
complete. We believe we have satisfied our charter. Our report 
contains 32 recommendations. We believe the implementation of 
all--underline in all--32 recommendations is required to 
maximize the probability of JWST success.
    Our initial observation is that JWST is an observatory with 
incredible capability, awesome scientific potential, and 
significant complexity, risk, and first-time events. An 
overarching recommendation of the IRB is that mission success 
be the top priority in all future JWST activities. JWST is at a 
point in its development that every appropriate thing that can 
be done to maximize mission success should be done.
    There are a large number of JWST accomplishments that 
require recognition. All flight hardware has been delivered. 
All science instruments have been integrated into the science 
module, which has been combined with the telescope to form the 
optical telescope and science instrument model called OTIS. 
OTIS has been successfully tested. The science instruments have 
met their requirements, and it has been delivered to Northrop 
Grumman for integration with the spacecraft and sunshield. This 
is but a few of the positive JWST accomplishments.
    In our report, we cite seven noteworthy JWST firsts, the 
most noteworthy being the sunshield, which is mandatory for 
success, and it has no significant legacy. There are two yet-
to-be-completed phases of the JWST project that represent 
significant risk. The first is integration and test. To date, 
there have been human errors and embedded problems that have 
caused significant delays in integration tests, resulting in 
large schedule delays.
    The IRB has been very--has very specific recommendations 
focused upon human errors and embedded problems. The success in 
implementing the IRB recommended corrective actions will 
determine the success of completing JWST development.
    Human errors are mistakes made by people working on the 
flight hardware or developing procedures that dictate how work 
on the flight hardware is to be conducted. Three examples of 
human errors that have had a major impact on JWST schedule and 
cost are: wrong solvent used to clean propulsion valves, test 
wiring erroneously connected to flight hardware without 
adequate inspection, sunshield cover fasteners improperly 
installed. The capability of the integration and test workforce 
and the quality of procedures must be such that human errors 
are minimized, and when they occur, their impact is negligible.
    Embedded problems or problems in the as-built hardware that 
are undetected until a major test many months in the future 
after the problem is introduced or, even worse, not detected 
until the observatory is in space. The valve solvent problem 
and sunshield fastener problem are examples of embedded 
problems that have had a major impact on scheduling. An in-
depth audit by NASA and Northrop Grumman of the flight 
hardware, including drawings, procedures, et cetera, is 
required to identify any additional embedded problems that may 
exist.
    The second JWST phase with high risk is spacecraft and 
sunshield deployments that occur during observatory 
commissioning. Approximately 307 single-point failure items 
must work to success--have these deployments be successful. 
This phase of JWST is similar to the entry-descent-landing 
phase of a Mars science laboratory mission which, for 
comparison, had 72 single-point failures when it landed on Mars 
in 2012. Both are high-risk missions with no ability to test as 
you fly. A world-class systems engineer established as EDL 
manager has been critical to the success of Mars landers. The 
IRB recommends the position of commissioning manager staff by a 
world-class engineer be established for JWST.
    There are several additional technical and management 
recommendations from the IRB. If fully implemented, such 
recommendations as NASA certification launch vehicle and 
management reporting and communication increase the probability 
of mission success.
    The IRB recommended launch date for JWST is March 2021. 
This is a 29-month delay from the October 2018 date established 
in 2011 with a cost of approximately $1 billion. Five factors 
have caused this delay: human errors, embedded problems, lack 
of experience in areas such as the sunshield, excessive 
optimism, and systems complexity. The JWST complexity and risk 
cannot be overstated. The IRB recommends--recommending March 
2021 launch date assumes the successful implementation of the 
recommendations in our report. No allowance has been made for 
additional INT errors or embedded problems with multi-month 
impacts. Additional sunshield deployments during INT beyond the 
currently planned two or removal of the spacecraft sun system 
or science estimate.
    With all factors considered, the members of the IRB are 
unanimous in recommending that JWST continue based on its 
extraordinary scientific potential and critical role in 
maintaining U.S. leadership in astronomy and astrophysics. 
Thank you.
    [The prepared statement of Mr. Young follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairman Smith. Thank you, Mr. Young. And I'll recognize 
myself for questions. Let me address the first one to 
Administrator Bridenstine. When we take a look at the cost 
overruns, when we take a look at the missed deadlines in regard 
to JWST, what are your options when it comes to contractor 
accountability for this particular mission, as well as for 
others?
    Mr. Bridenstine. So for this particular contract it's cost-
plus and award fee, and the award fee is the profit because, 
other than that, the contractor is working at cost. The award 
fee is based on a set of metrics that NASA determines. 
Technical capability is included in that; cost, schedule, 
business administration is included in that. And during the 
course of evaluating the contractor, we're making 
determinations as to what their award fee will be.
    So a couple of things here. Number one, their award fee has 
not been as good as it otherwise would have been, so that has 
in essence hurts their bottom line. And number two, when 
there's a cost overrun or a schedule delay, as we have right 
now, there is no award fee, so they are in essence working 
right now at cost.
    Chairman Smith. Okay.
    Mr. Bridenstine. Now, ultimately, as has been identified, 
there's going to be a commissioning process of the satellite 
once it's in space, and there are potential award fees in that. 
Those potential award fees add up to--if they were to maximize 
it, it would add up to about $60 million. We have already taken 
off the table $28 million of the $60 million, which again is 
not helpful to the contractor and hurts their bottom line. It 
is also true that the remainder $30 million-plus available 
they're going to have to perform in order to accomplish and 
achieve that award fee, which is again there only profit.
    Chairman Smith. Okay.
    Mr. Bridenstine. It is also true that there are provisions 
in the contracts to actually claw back previously earned award 
fees. And I want to be really clear, Mr. Chairman. We don't 
want any of that to happen going forward. We want success going 
forward, which means that the punishment they've already 
received would be the punishment they will receive. That 
doesn't guarantee that's how it's going to be going forward----
    Chairman Smith. Right.
    Mr. Bridenstine. --but, ultimately, we want them to be 
successful because if they're successful, then we are 
successful. And so those are some of the tools that we have in 
our belt.
    Chairman Smith. Okay. That is really helpful, all those 
options that you just mentioned, and I appreciate that.
    Next question, is there any legislation that Congress can 
pass that will help you enforce contractor accountability? Do 
you need any more authority than you already have?
    Mr. Bridenstine. We have really good authorities that we 
utilize right now. We have what's called an Acquisition 
Integrity Program that's administered by the Office of the 
General Counsel at NASA. The Acquisition Integrity Program 
ultimately has provisions by which a contractor can be 
suspended or can be debarred. Again, we don't like exercising 
those authorities, but under the federal acquisition 
regulations, those are tools available to us.
    If there's a law that Congress could pass, one of the 
things we're doing right now is we are taking some of our best 
talent and we are embedding them with Northrop Grumman in this 
process. You know, NASA--we like to count ourselves a smart 
buyer. When I say that, we have--and this is absolutely true. 
We have really intelligent and capable and qualified people 
that we can take off of other projects and put on to this 
project, for example, and we are doing that right now and 
embedding them with the contractor. That's----
    Chairman Smith. Okay.
    Mr. Bridenstine. --smart buying. One of the challenges we 
have going forward is a lot of the talent is going other places 
because of the way we hire. So if we could--if you could pass 
one law, maybe direct-hire authority could help us ultimately 
keep our smart buyer capabilities.
    Chairman Smith. Okay. Thank you, Mr. Bridenstine.
    Mr. Young, how do you think the program management for JWST 
compares to other programs that you've analyzed?
    Mr. Young. It depends on how far back you--excuse me. It 
depends on how far back you're going back in the program, I 
mean, looking at the charts that you had this morning. If you 
go back to, say, the first confirmation that I'm familiar with 
where I think JWST was confirmed by NASA at $2.75 billion with 
a 2011 launch, you know, we--the costs have increased roughly a 
factor of three since that time period----
    Chairman Smith. I was primarily talking just about the 
program management itself in isolation. Do you consider it to 
be one of the worst, one of the average? How does it compare to 
others?
    Mr. Young. Well, I'm kind of sneaking up on that answer.
    Chairman Smith. Okay. All right. I've got limited time, so 
I hope you'll sneak up quickly.
    Mr. Young. Okay. And I'll sneak fast. Okay. So if you look 
at the program, it's grown a factor of three in a decade. It is 
hard to take a program with those characteristics and conclude 
it's anything other than a not-well-managed program and by 
comparison not a well-managed program.
    Chairman Smith. Okay. Any description as to what you think 
of a program that costs 19 times what was anticipated and is 14 
years delayed?
    Mr. Young. My description would be the same, poorly 
managed.
    Chairman Smith. Okay. And what about recommendations, Jim 
Bridenstine mentioned a couple of the options that he had, like 
sanctions. Do you have any recommendations going forward for 
what we might do with some of those fees and some of the profit 
and how that can be used to encourage Northrop Grumman to 
perform better?
    Mr. Young. I think his comments were very good. I would 
really underline the fact that at this stage in the program all 
of us--emphasize all of us--need to be focused on maximize the 
probability of JWST being successful. So if I--I'm speaking 
only as an individual, but if I had this problem, I would take 
all of the available fees that currently exist, be they the fee 
on work to be done, the award fees that have not been awarded, 
the future award fees, I'd put them altogether and I'd put them 
in one lump sum and I would have the criteria for getting them 
the quantity and quality of data returned by JWST after it's on 
orbit. So I would turn every dollar yet to be awarded into an 
award fee based on mission success.
    Chairman Smith. That is a very good suggestion, which I 
endorse, and I thank you for mentioning it today.
    The gentlewoman from Texas, the Ranking Member, is 
recognized for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Administrator, you mentioned in your last statement 
that we're moving people and unable to control some of that 
movement. Could you expand a little bit on that?
    Mr. Bridenstine. So there's a number of things that we are 
already putting into place ultimately to ensure success, so we 
have taken some NASA talent and put it on this project that--
and it's not just people and bodies. It's capability, it's 
people with history and--that are highly qualified on this 
project embedded with Northrop Grumman. We are also instituting 
more oversight from the Goddard Space Flight Center and from 
NASA headquarters, and in fact we have created an even stronger 
mission assurance capability so that every screw that goes on 
to this spacecraft ultimately is being quality assured so we 
get immediate feedback if something is--if anybody believes 
something is not right.
    We want everybody to be empowered to say stop because one 
of the challenges that we've had is that there are embedded 
problems. Some of these problems are screws that were put in 
the sunshield covers going back years, and we don't discover it 
until the integration and tests.
    I also want to--and I think it's important for me to 
testify that--and I heard it from Mr. Young as well. We're at 
the integration and test phase. All of the hardware is built. 
The software is ready to go. In fact, the scientific 
instruments have already been tested. What we're doing now is 
we're integrating the scientific instruments ultimately with 
the spacecraft and then testing that. And that's where we're 
having the challenge.
    So I think it's important to note, if I can give an 
analogy, we're on the five yard line we're trying to punch it 
into the end zone. And I know that, you know, a cost overrun 
and a delay is not what Congress wants to hear, but at this 
point, given the scientific return, I think it's critical that 
we continue to put all of our resources here to get it 
complete.
    Ms. Johnson. Do you think you have the proper tools to hold 
Northrop Grumman accountable?
    Mr. Bridenstine. I do at this point. It is my assessment 
that we have a contract that gives us flexibility ultimately to 
hold them accountable.
    Ms. Johnson. Mr. Young, would you like to comment?
    Mr. Young. My comments would be similar. I think we do make 
some observations in our report of areas that we think it 
really be strengthened. One I think was in one of your opening 
statements. I think it's very clear that NASA have clear lines 
of authority and accountability for managing this project, and 
an observation was that they did not exist when we were looking 
at them. We made a very strong recommendation in this regard 
that the Center Director of Goddard have a clear responsibility 
for the success of the program and the Associate Administrator 
of SMD have a clear responsibility for the success of this 
program.
    Our observation is that's not been the practice to date. 
That's our recommendation. I don't know what NASA's response to 
that is, but accountability, clear-lines responsibility, and 
authority to proceed are critical to managing a program such as 
JWST.
    Mr. Bridenstine. I would just piggyback on that and say we 
are in fact implementing that recommendation of the IRB and 
certainly it will make a difference.
    And by the way, Tom Young used to be the Director of the 
Goddard Space Flight Center, so he knows a thing or two about 
the organizational structure so--
    Ms. Johnson. Well, let me thank you both and kind of review 
that this is the first time we've ever done something like 
this. It's a big project, and it's an important project, and I 
would hope and I believe that both of you will continue to--
well, your responsibility, Mr. Young, is over, but I hope you 
keep a little eye going, too. And thanks to both of you.
    I yield back.
    Chairman Smith. Thank you, Ms. Johnson.
    The gentleman from Texas, Mr. Babin, is recognized for his 
questions.
    Mr. Babin. Yes, sir. Thank you, Mr. Chairman.
    My first question is for Administrator Bridenstine. The 
JWST program cost issues pose a budgetary threat to the other 
NASA science mission programs, especially the WFIRST program. 
What is your assessment of the budget planning challenges for 
NASA science mission programs in light of the latest JWST cost 
overruns?
    Mr. Bridenstine. That's a wonderful question, Chairman, and 
it's something that we think about and we worry about because 
you're absolutely right. This cost overrun is going to be a 
challenge going forward. So I'd like to start by saying that, 
right now, we have a very balanced portfolio for astrophysics 
that includes small missions that are not very expensive, 
medium missions that are a little more expensive, and that we 
have these, as you mentioned, flagship missions that are 
strategic in nature, take a long time, and very expensive but 
ultimately make the United States of America the premier 
country when it comes to these kind of scientific capabilities, 
which we all like and believe in. When we do these massive 
flagship missions, as you just identified, and there are 
overruns and there are delays, it absolutely makes us in 
essence cannibalize some of the other missions in the future.
    You mentioned WFIRST. The idea of WFIRST presumed that JWST 
would be on orbit and delivering science, and so it is my 
recommendation that, you know, we move forward with WFIRST 
after we move forward with JWST. I think that's--now, it is 
true that we can do some development now. I'm not saying that 
we need to shut down WFIRST and we shouldn't do it.
    Mr. Babin. Right.
    Mr. Bridenstine. What I'm saying is there's opportunity 
here because it presumes JWST would be on orbit. It is also 
true that, as we go forward with this balanced portfolio to 
make sure that we are getting the best science that we can get 
in astrophysics and throughout the entire Science Mission 
Directorate, we want to follow what Ranking Member Bera 
mentioned, which is the decadal surveys that come from the 
National Academies of Sciences. So that gives us kind of our 
guidance if you will to make sure that we're not damaging our 
total portfolio to deliver the absolute best science.
    So I will--this is important, too, Mr. Chairman. The goal--
when you think about 2019, we have--there is some money that is 
left over from last year, plus the--you know, the--at this 
point JWST was intended to be in operation, so we have the 
operational money that we can apply to the development of JWST, 
so for 2019 it doesn't look like we're going to need any more 
money. The first time that we're going to need any more money 
is going to be 2020----
    Mr. Babin. Right.
    Mr. Bridenstine. --and that's when we're going to have to 
look at ultimately how do we balance this portfolio to make 
sure we get the mix right.
    Mr. Babin. And our reauthorization bill actually specifies 
that before WFIRST is complete, we've got to have JWST on 
orbit.
    Mr. Bridenstine. Yes, sir.
    Mr. Babin. Yes. Also, for both of you gentlemen, the Trump 
Administration has included space as part of the national 
security strategy. Do you think the JWST development issues 
signal an erosion in the quality of the American space 
industrial base to our near-peer adversaries, thus negatively 
affecting our national security strategy? Are JWST problems 
signs of more serious problems with our space industrial base?
    Mr. Bridenstine. So we--there is a study underway right now 
that is considering that as an issue. I don't want to prejudge 
that study, but I will tell you the industrial base is 
something that is critically important to the national security 
interests of this country, and NASA plays a role there. Our 
scientific capabilities ultimately are for peaceful purposes. I 
mean, that's just the reality. We do discovery, we do 
exploration, we do science. That's what NASA is, that's what 
NASA does. We inspire and we educate. And so we don't get 
involved in national security directly.
    It is absolutely true, though, that what we do does help 
the industrial base, and the technologies in many cases can be 
used both for science and for national security. So I don't 
want to prejudge the study, but certainly NASA plays a role 
here.
    Mr. Babin. Okay. And Mr. Young?
    Mr. Young. My general observation is that the industrial 
base is strong. I think that the problems that we're talking 
about on JWST are problems that we know how to solve. I mean, 
they're not failures of F equals MA or what have you. So it 
is--space is a one-strike-and-you're-out business. You don't 
get two swings at it. And what that really says is it takes 
extraordinary discipline, it takes extraordinary training of 
the people, and it takes a safety net that prevents a problem 
when it occurs because humans are going to make errors from 
that problem becoming mission catastrophic. We know how to do 
that. The disappointing thing in what we're talking about here 
to be honest is these are problems we know how to prevent.
    So my observation would be, yes, we should learn from JWST 
the--every day in a one-strike-and-you're-out business you've 
got to renew your focus on discipline, but it's certainly that 
we know how to do, can do, and it will be a positive factor not 
only for the civil space program but also for national security 
space.
    Mr. Babin. Thank you very much. I wish I had 10 more 
minutes, Mr. Chairman, but I don't. And I yield back.
    Chairman Smith. Thank you, Mr. Babin.
    The gentleman from California, Mr. Bera, is recognized.
    Mr. Bera. Thank you, Mr. Chairman.
    As I said in my opening statement, when you're looking at 
budgeting, et cetera, it's complicated, particularly when 
you're doing budgeting for something that you haven't done. I'm 
a simple person. I think about it in the context of my daughter 
going off to college and she's going to start her senior year. 
And we made a contract saying you're going to finish in four 
years, and she assures me she is going to finish in four years, 
but I don't--we won't have this conversation in the committee 
hearing if she comes back at the end of that fourth year and 
says I've got a couple units that I it won't be a comfortable 
conversation. And, Administrator Bridenstine, I know this isn't 
a comfortable conversation.
    And I think everyone understands that, given the scientific 
importance of JWST, given the sunk costs that we already have 
in this and the additional costs, it doesn't make any sense not 
to complete this mission and, you know--and do it in a way that 
optimizes success. I mean, it would be a real shame if we 
stopped this mission. It would be an even bigger shame if we 
continued. And I think, Mr. Young, you said 307 single-point 
failure areas, which suggests how complicated this is, that we 
went through you to finish and we got 306 right but we didn't 
get the 307th right.
    So, I don't sense that Congress or the committee will say 
put a halt on this, but it doesn't mitigate what we think about 
going forward, right? I mean, I think a lot of us understand 
the scientific importance of WFIRST, et cetera. It does make it 
harder for this body in fiscally austere times when we're 
thinking about a lot of budget considerations, not just in the 
area of NASA but obviously throughout the entire federal budget 
as we authorize and allocate funds going forward.
    And I think in that context--and, Mr. Young, through the 
IRB process, I'd be curious about hearing some of what we've 
learned looking backwards that will help this body in its 
oversight role make better decisions going forward. Does that 
make sense?
    Mr. Young. Sure, good question. I think that you can 
certainly look at JWST but you can also look at WFIRST. I think 
what NASA did recently with WFIRST was they did an in-depth 
review of the WFIRST program to look at requirements, cost, 
budget, all the factors. And they did it at a time where 
there's total flexibility. In other words, for WFIRST today 
everything is controllable that you can make every decision 
that you want on the program. You can adjust the requirements 
to go with the cost, to go with the schedule, to go with the 
technical risk. And that's--now, what it also requires is after 
you got all those data, if you'll allow me to say so, it 
requires leadership to utilize those data to turn them into a 
credible program.
    But I think that it should become common practice for 
programs, flagship missions, not only for astronomy and 
astrophysics but across the board to--prior to entering into 
real development to take the time to really look at all the 
trade space and to make intelligent decisions as to how far you 
want to push the technology, how far you want to push the 
requirements, and what's affordable and what is a reasonable 
schedule in the process. I actually think that's an 
extraordinarily powerful tool that can eliminate some of the 
issues that we're talking about now with future programs, 
starting with WFIRST.
    Mr. Bera. So as--I guess maybe this is for Administrator 
Bridenstine. As we start to look forward certainly within JWST 
but within future programs, I think it'll be incredibly 
important to think about what we've learned, to think about 
there's obviously scientific and technological risks that are 
unexpected, but also, if I listen to Mr. Young, there's the 
organizational, decision-making, human error side of things 
that we ought to have a lot more control over and put the 
systems and processes in place, the redundancy, et cetera, that 
helps prevent these types of issues happening in the future.
    So, you know, it looks like I'm out of time, but again, we 
can't undo the past. Let's just make sure we learn from the 
past and we don't repeat the same failures in the future.
    Chairman Smith. Thank you, Mr. Bera.
    The gentleman from California, Mr. Rohrabacher, is 
recognized for his questions.
    Mr. Rohrabacher. This, of course, is very disturbing when a 
large amount of wealth has just evaporated that we thought we 
had and we had planned on. And when you talk about the real 
difficulty of the mission--you have to come to the point where 
this type of mission where every screw has to have its quality 
tested, and that's part of this. Well, I can tell you this is 
about the biggest screw job I've ever seen, and it's the 
taxpayers getting screwed here.
    And, however, let us note when we say that and understand 
that and we expect more, that this is not inconsistent with 
other things that we have witnessed from NASA and from the 
aerospace industry. I remember the C-17 project, and the C-17 
was $1 billion over budget and they were going to close down 
the whole line, and I remember--it was one of the first things 
when I came here--I remember calling my father, who was a DC-3 
pilot in World War II, saying ``should I vote for the money to 
put this C-17 back in production? Because they have already 
gone almost $1 billion overrun and they're going to have to 
start all over in building the line.''
    And my dad said, ``well, let me ask you this. Do you think 
the C-17 is going to be needed by people who are defending our 
country in the future?'' And I said, ``well, yes, because we're 
going to have to project power.'' And thank God I thought of 
that because I said in the future we're going to have to 
project our power to areas on the other side of the world 
rather than having bases everywhere.
    And he said, ``well, then you just answered your question. 
You need the airplane.'' And he said every single plane I 
know--my dad was a career pilot--every single plane had cost 
overruns, every single plane, he says, because they're trying 
to do what they haven't done before. And that's what goes with 
that territory, when you're doing something that you've never 
done before.
    I would hope that we can be more realistic, and we can hope 
that Mr. Bridenstine in his new job here can be more realistic 
in the assessments. Let's note that in 2002 we awarded, what, 
$824 million to TRW for this telescope project, and it was 
supposed to be launched eight years later. And now, it's twice 
as long as what was expected, and the cost is 12 times more 
than expected for the James Webb Space Telescope. But when you 
look back, the Hubble Space Telescope was 12 times the cost and 
twice as long as expected as well. I think I see a trend there 
somewhere. And I think that we need to be very serious about 
that. I mean, I remember we had trouble with the space station 
as well in cost overruns, and we certainly had trouble with the 
Hubble and the C-17.
    Let me ask you, Mr. Young, is one of the problems of these 
professionals that we rely on in the aerospace industry, are 
they bidding and saying they can do something before they know 
they can do it or--it's one thing to say ``we believe we can do 
this,'' but are they basing a lot of their bids on maybe 
something that they don't know they can do but they think they 
can? Is that one of the problems?
    Mr. Young. If you take JWST, the bidding was a long time 
ago, as you point out, it was in '02. And NASA, we've come a 
long way since '02 in our understanding as to how to cost these 
projects and to establish schedule for these projects. But I 
think it is fair to recognize that on--with cost-plus programs 
this is not--you're not going to enjoy this answer, but with 
cost-plus programs, contractors fundamentally bid lowest 
credible cost, and it's really up to the evaluators to have a 
competent capability such that lowest credible doesn't win. So 
there is a situation that exists, but that's the status that 
existed then and probably, you know, still to a degree exists 
today. But as long as lowest credible cost wins, lowest 
credible cost will be bid.
    Mr. Rohrabacher. And can we change that? Is there an 
alternative to that?
    Mr. Young. Sure, there's an alternative, and that is the--
how smart the buyer is to be able to establish what the 
realistic costs are and to punish in the bidding process 
bidding unrealistically low cost.
    Mr. Rohrabacher. Well, when we try to analyze what the cost 
of the screw job is going to be, I hope that we understand that 
that's what the cost is to the American people if we aren't 
handling that in a professional way. Thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentleman from Illinois, Mr. Lipinski, is recognized.
    Mr. Lipinski. Thank you, Mr. Chairman.
    It's good to have you back, Mr. Bridenstine. Thank you for 
your work there at NASA. This is obviously a critical program. 
The impact that this is going to have on astrophysics and for, 
you know--we talked a little bit about what that means in terms 
of searching for life, seeing the beginning of the universe, 
the impact is very hard for everyone to understand.
    I think one of the issues that we have here in this 
Committee and Congress in general is trying to understand the 
technology, understand how we can do the best job we can do to 
get the best science at the--you know, without the cost 
overruns, without the delays. But lacking the expertise, we 
have a difficult time with that.
    We've discussed a lot of things. You and Mr. Young have 
discussed a lot of things that went wrong with the JWST and 
some things that could be changed going forward. So I wanted to 
ask you, Mr. Bridenstine, do you believe that, going forward, 
that lessons learned really can be applied here? Because it 
seems there's a lot of things that we're talking about, and 
some of them taking more time, I mean, that's going to be more 
time and more cost, you know, figuring these things out, making 
sure that everything's covered, making sure that everything is 
checked. Are you confident that there are lessons learned? And 
how are those lessons learned going to be, you know, 
implemented going forward?
    And Mr. Rohrabacher brought up, you know, well--and Mr. 
Young said that everyone--everyone who's bidding always 
underbids. Well, do you have the ability at NASA to really get 
these things better under control so that you can deliver 
better for the American people going forward?
    Mr. Bridenstine. All wonderful points, and certainly the 
answer is I really believe that there are a whole host of 
learning points here and that these learning points ultimately 
need to be distributed not only across NASA but across 
government at large. And so one of the first things we're doing 
is we're taking the lessons learned, when you think about all 
of the 32 recommendations from the Independent Review Board, 
we're compiling those and we're going to have a roadshow and go 
to all 10 of the NASA centers and other facilities that NASA 
has and we're going to go around and we're going to talk about 
ultimately what the failure was here. This is an opportunity, 
quite frankly, to learn and to prevent this kind of thing from 
happening in other missions.
    A couple of things I think are important to address on the 
chart we saw, you know, the $500 million original cost figure. 
One of the challenges NASA had going back all the way to then, 
the early 2000s, was what are the requirements? What are we 
building here? And at the time the telescope was going to be a 
4 meter--it's going to have a four meter mirror. The primary 
meter--or the primary mirror was only going to be four meters 
large. Then it was determined, well, hold on a second, we want 
to see all the way back to the very beginning of the universe, 
the very first light. Well, that means we have to be able to 
detect even more trace infrared signatures that we've never 
been able to do before.
    So how do we accomplish that? Well, we have to have, you 
know, almost absolute zero temperatures, we have to have this 
massive heat shield that is very intricate with five different 
layers of Kapton sheets, so on one----
    Mr. Lipinski. But----
    Mr. Bridenstine. Yes.
    Mr. Lipinski. Excuse me because I'm running out of time 
here.
    Mr. Bridenstine. Yes.
    Mr. Lipinski. Is there--going forward, though----
    Mr. Bridenstine. Yes.
    Mr. Lipinski. --I understand the complexity and the added 
complexity as looking for something that could do more. Is 
there a way that we can be confident here that this is not 
going to happen in the future? It wasn't just the added 
complexity.
    Mr. Bridenstine. Right.
    Mr. Lipinski. The complexity was added, but then how much 
it was going to cost, how long it's going to take----
    Mr. Bridenstine. Yes.
    Mr. Lipinski. --there was not a--it doesn't seem to maybe 
have been realistic, you know----
    Mr. Bridenstine. That is absolutely true, and that was the 
recommendation from the Independent Review Board is that we 
were excessively optimistic.
    Mr. Lipinski. Well, let me ask Mr. Young. Are you--how much 
confidence do you have that we're not going to be back here 
with another, you know, WFIRST or any other major NASA 
projects, that we're not going to be talking about the same 
issues again after we've gone through this?
    Mr. Young. If you could narrow your question, if--and do I 
believe that for JWST we know the lessons learned in order to 
successfully complete this program. I believe my answer to that 
is yes. And what I really mean is that if the recommendations 
that we have made, if NASA implements them as we intended in 
the depth that we intended them to, then I believe we will 
maximize the probability of success of JWST.
    A few fundamentals: We have got to--when human errors 
occur, we have got to have the processes in place that keep 
them from having any significant impact on schedule, and we 
know how to do that. The other item, which is harder, is the 
embedded problems. There have been two. Are there any more 
embedded problems? And if they are, we have got to find them 
before we get to the test so that we can eliminate them.
    Now, that is a hard item. That will take tens of people 
months to go through. Fundamentally, what you're doing is you 
are reestablishing the pedigree for each piece of hardware that 
you are----
    Mr. Lipinski. So it's more time is going to take?
    Mr. Young. Yes. Yes, it could--it possibly could----
    Mr. Lipinski. And we have to understand that.
    Mr. Young. It's possible it could take more time.
    Mr. Lipinski. We have to be accepting of that.
    Mr. Young. It's possible. That's possible. I actually think 
that the schedule has been established with the reservations 
that I--or with the footnotes that I put on in my comments is a 
realistic schedule, but the program is really at a point right 
now that you--there's really--the control parameters are small, 
and that is you really have a choice between cost and schedule 
and risk. I mean, that's what your--that's what the program is 
managing from this day forward. And if you try to go too fast 
with too little cost, then you're probably going to add risk. 
And it doesn't mean that you don't have to be prudent in how 
you manage the risk, but you're really trading risk, schedule, 
and cost every day is what the project people would be doing 
from this day forward in JWST.
    Mr. Lipinski. Well, I think the science is so important 
that we--no question that we need to move forward. Thank you.
    Chairman Smith. Thank you, Mr. Lipinski.
    The gentleman from Alabama, Mr. Brooks, is recognized.
    Mr. Brooks. Good to see you here, Mr. Bridenstine.
    Mr. Bridenstine. Thank you.
    Mr. Brooks. I miss some of our witty conversations during 
votes on the House Floor.
    Mr. Bridenstine. You bet.
    Mr. Brooks. You have not been replaced, but we're looking.
    Mr. Bridenstine. All right.
    Mr. Brooks. Per the testimony, the James Webb Space 
Telescope delay cost taxpayers roughly $800 million. With the 
limited resources of the NASA budget, I'm concerned that other 
space priorities will have their funding impacted by these cost 
overruns, and that concern has been heightened by your 
testimony that these cost overruns may force NASA to, quote, 
``cannibalize other missions,'' end quote.
    With that as a backdrop, will you commit here today that 
these James Webb Space Telescope cost overruns will not come 
from the space and human exploration or, more specifically, the 
space launch system portions of the budget?
    Mr. Bridenstine. So there--at this point, that hasn't even 
been discussed, so this is relevant to the Science Mission 
Directorate exclusively, and that's where at this point we've 
had discussions about, you know, what are the options going 
forward.
    Mr. Brooks. What is the timetable for NASA's determination 
of what programs will be cannibalized to come up with that now 
$800 million shortfall?
    Mr. Bridenstine. So maybe the word cannibalized isn't the 
right word, but the idea is there is an opportunity cost going 
forward, what missions maybe we--do we not start and that kind 
of thing. So the answer is by the 2021--or, actually, by the 
2020 time frame is when we're going to need to have additional 
funds, and so between now and then we're going to have to make 
determinations. And, you know, that process is right now. It's 
underway. And in this process what we're trying to do is, 
again, evaluate where we are with respect to the decadal 
surveys for each of the divisions of the Science Mission 
Directorate, make sure that we're in compliance with that, and 
ultimately, do it in a way that people can agree on. And I'd 
love to have your feedback on that.
    Mr. Brooks. Well, as a member of the Space Subcommittee and 
also as a member of the Science, Space, and Technology 
Committee, you can imagine how each of us on this Committee 
focus on different parts of what NASA does for our country. And 
I suspect that each of us has some concern about whether things 
that we believe are most important may be delayed as a result 
of these James Webb Space Telescope cost overruns. So if you 
could please keep us informed as you engage in your decision-
making process, I would very much appreciate it, and I'd submit 
that the Committee as a whole would also do so.
    Mr. Bridenstine. You can count on it.
    Mr. Brooks. With that, Mr. Chairman, I yield back the 
balance of my time.
    Chairman Smith. Thank you, Mr. Brooks.
    And the gentleman from Virginia, Mr. Beyer, is recognized.
    Mr. Beyer. Thank you, Mr. Chairman, very much.
    Mr. Bridenstine, welcome back.
    Mr. Bridenstine. Thank you.
    Mr. Beyer. You know, how much has changed since 1996----
    Mr. Bridenstine. Oh, my goodness.
    Mr. Beyer. --when this was first put out there at half-a-
billion dollars? And I was just thinking about so many projects 
that we've seen over the years, whether there's been actually 
evolution in design, what we expected the project to do, the 
kind of instruments that were on board. I love that you brought 
up the search for the cosmic dawn and looking back into that. 
Can you even talk about how much cosmology has changed, the 
science itself in those 22 years, and what impact has that had 
on the delays and the cost?
    Mr. Bridenstine. It's a wonderful question, and when you 
think of the universe at large, we're--NASA is learning new 
things every single day--how the universe is expanding and not 
just expanding but expanding at an ever-increasing rate; it's 
actually accelerating--and what is causing that, and can James 
Webb help us understand that--you know, at the edge of the 
universe there are galaxies in essence disappearing because 
they're accelerating faster than the speed of light. So those 
galaxies, the light from them if they're faster than the speed 
of light, that light can't get back to Earth, which means 
there's a lot of things we don't understand about the physics, 
astrophysics that this particular spacecraft is going to help 
us learn.
    Going back to the very beginning of cosmic dawn, we're 
going to learn how did the very first galaxies form, what did 
that first light look like, what was its shape, what was its 
pattern? And we have models at NASA that we believe could be 
accurate, but I'm telling you they're not because we don't 
know.
    We talk about things like dark matter and dark energy, 
things that we have very little understanding of. We cannot 
interact with it in any way. We cannot sense it, we cannot 
detect it, but we--there's evidence of it based on how objects 
move in space. There's evidence of gravitational effects of it.
    And so--and all of these things--talk about gravitational 
waves, things that, you know, just recently we have been able 
to detect, you know, so all these kind of, you know, new things 
that didn't exist, you know, even a few years ago--and earlier, 
I mentioned the exoplanets. The idea that exoplanets existed is 
a--I mean, the idea that they existed is not new, but we had no 
evidence of it until, you know, within the last ten years, and 
now every day we're detecting new exoplanets. And now there's 
thousands of exoplanets right near our own star, and the 
question is, you know, can this help us understand the 
atmospheric composition of those planets that are around other 
stars and help us understand whether or not life could exist 
there? So----
    Mr. Beyer. Well, I really want to thank you for the 
comprehensiveness of that answer because I think you point out 
very clearly that this isn't simply mismanagement or cost 
overruns or delay. It's the fact that the world and science 
itself is changing----
    Mr. Bridenstine. Yes.
    Mr. Beyer. --in ways that impact the project that we have 
completely different expectations for in 2018 than we had in 
1996.
    Mr. Bridenstine. That----
    Mr. Beyer. So let me ask you another completely speculative 
question, but you did so well on that one. Nine-point-six 
billion dollars is what we're going to spend. What would be the 
value of the knowledge that we get compared to that $9.6 
billion?
    Mr. Bridenstine. So, again, we don't know what we don't 
know until this spacecraft is operational. I want to be clear; 
we are doing everything we can to make it operational. But when 
it becomes operational, it's going to change our understanding 
really of astrophysics, change our understanding of the 
universe and even galaxies and their formation and the 
formation of planets. So all of this is going to add tremendous 
value.
    But I would also argue--and I really believe this--that the 
United States of America may have lost some ground when it 
comes to science and astrophysics on the international scene. 
What this spacecraft represents is the reestablishment of the 
United States of America is the preeminent Nation when it comes 
to astrophysics and science. And I think that's an important 
part of our leadership in the world, and ultimately, other 
countries all around the world are coming up with ideas on how 
to use this spacecraft, and they want access to it, countries 
that you wouldn't normally think of that--and universities that 
have great astrophysicists that want to have access to this. 
And they're sending NASA ideas all the time on how to use this, 
so there's a whole host of capabilities that we can't even 
predict yet until it's on orbit, and we're doing everything we 
can to get there.
    Mr. Beyer. Mr. Chairman, I just wish we had a head of NASA 
that was excited about this project.
    Chairman Smith. Well, when you asked your first question, I 
could see that answer going on for a couple of hours, but I 
thought it was a good answer.
    And thank you, Mr. Beyer.
    We'll now go to the gentleman from California, I believe, 
Mr. Knight. He's recognized for questions.
    Mr. Knight. Thank you, Mr. Chairman.
    I had the honor of having the new Administrator at our new 
NASA caucus last night, and he spoke about all of the great 
things that NASA is doing. And we brought up what New Horizons 
did and how that was kind of a mankind-changing event. It was 
on every newspaper across the globe. This wasn't a national 
issue; this was a total-globe issue when we went by Pluto and 
we were able to go within 10,000 miles of Pluto's surface and 
do all of the things that New Horizons brought to us.
    But I'd like to kind of look at what we've done in 
progression with Hubble and even closer to home with SOFIA and 
some of the other telescopes that we use and what we see and 
what we get. Give me an idea--and I think you've expanded on 
this quite a bit--but how much of a game-changing event is 
James Webb going to be----
    Mr. Bridenstine. Yes.
    Mr. Knight. --compared to what Hubble gives us that's 350 
miles away from us and James Webb being almost a million miles 
away from us and cruising?
    Mr. Bridenstine. It's a wonderful question, and I've heard 
Chairman Smith talk about Hubble a lot in my days on this 
Committee and his excitement for it. And I'll tell you the 
story he tells and how Hubble absolutely changed the game of 
what we understand about our universe. The way Chairman Smith 
describes it, if you hold a penny up at arm's length and you 
look at the eye of Abraham Lincoln, when Hubble looks through 
that eye, which is a very small piece of sky, just--that's all 
the piece of sky that it's looking at, but in an area of space 
where there's not a lot of stars in our own galaxy so we could 
see beyond our galaxy, Hubble started taking pictures in areas 
like that.
    And instead of seeing stars, Hubble saw thousands and 
thousands of galaxies. So we now believe that there are 
potentially 400 billion-plus galaxies, each with 400 billion-
plus stars, and I'm just throwing out round numbers here. Every 
galaxy is very different.
    Mr. Knight. We won't hold you to those numbers.
    Mr. Bridenstine. Right, okay. But it changed the way we 
understand our place in the cosmos and ultimately how complex 
our cosmos is. And Hubble changed the game. It changed 
textbooks. You know, the--we didn't grow up with that 
knowledge. Now, we have that knowledge, and it's in the 
textbooks that my kids are reading.
    James Webb is going to do the same thing for our 
understanding of how, you know, physics in the early universe 
worked because there's a lot of things we don't know. And so it 
will change textbooks. It will be generational just like Hubble 
was, and it's a whole new level of understanding that we're 
going to have to have as a Nation and as humanity.
    Mr. Knight. Absolutely. And I appreciate the Chairman doing 
this. This is very important. It's important for us as 
Representatives for us to know what is a cost overrun, what is 
a time overrun, what are the difficulties, and is this 
something that we saw when we started out on this.
    A lot of times government asks for something that we might 
not know how to do, but over a period of time we're going to 
learn that, something that maybe we've got a get a little 
better at, too. This is an extremely difficult issue, and this 
is something that is going in a different direction. But as I 
like to say, America takes giant leaps where others thought was 
impossible, and that's exactly what we're doing with James 
Webb.
    So I think that everyone has said keep it on time now, move 
forward, let's get this in the air so that our academics, our 
kids who are going to learn from this and scientists around the 
world are going to learn. That is who we are going to impact. 
This is a humankind event. This is not something that's easy, 
and this is not something that we're going to have more 
problems. But when this happens, this will be a humankind 
event.
    So I appreciate your leadership. I appreciate the 
enthusiasm. That's what NASA is about. It's achieving. It's 
making sure that that seven-year-old that wants to be an 
aeronautical engineer or an astronaut or whatever looks at NASA 
and says, ``look at all they're achieving.'' That's what I want 
to do. And it changes the globe for the better, so thank you.
    Mr. Bridenstine. Mr. Knight, I would add that we're making 
great progress on the low-boom flight demonstrator.
    Chairman Smith. Thank you, Mr. Knight.
    And thank you, Mr. Bridenstine, for that great description 
of the deep-field view taken by the----
    Mr. Bridenstine. There you go.
    Chairman Smith. --Hubble Space Telescope. I've actually 
passed out over a thousand 8 x 11 glossies of that deep-field 
view, that----
    Mr. Bridenstine. Is that right?
    Chairman Smith. --speck of sky where you describe where 
nothing was thought to exist. The film was exposed for 24 
hours, and in that speck, there were 3,000 points of light, 
each not a star but each a galaxy consisting of an average of 
100 million stars. If anyone wants to know why we explore, take 
a look at that deep-field view.
    The gentleman from Pennsylvania, Mr. Lamb, is recognized 
for his questions.
    Mr. Lamb. Thank you, Mr. Chairman.
    Mr. Bridenstine, you used the term reestablishment of the 
United States as the leader in astrophysics. Could you just go 
a little further with that? Do you feel that we've lost ground 
in recent times? And what would be the reason for that?
    Mr. Bridenstine. I don't know that I would say--well, I 
would say that others have gained ground, how about that? And 
there are other countries around the world that are developing 
capabilities all the time. The European Space Agency is doing 
wonderful work. China is in fact establishing a pretty 
impressive astrophysics capability. And so I wouldn't say we've 
lost ground. I would say others have gained ground.
    We welcome that. Knowledge is knowledge, and we want them 
to be successful. In this particular case, this is going to 
gain new ground for the United States of America, and I think 
it's important that we always strive to do more because when we 
do more, then they're going to do more, and ultimately, our 
knowledge, especially from James Webb, from Hubble, these 
capabilities, the data that we get from it, the information, 
the scientific--it's available to the world. And scientists can 
actually use the data to make discoveries that NASA doesn't 
have the capacity to make on its own. And so when we make it 
available, a lot of people find new things that we didn't 
ourselves even discover, and so it's good for the entire world.
    Mr. Lamb. Absolutely. Do you--so I think that's an 
important point that the funding discussion behind this both 
for James Webb and for NASA overall isn't taking place in a 
vacuum. China, you mentioned, is making significant investments 
in astrophysics, and I think we know that in their space 
program they're going it alone in some areas, you know, 
suggesting that there is a bit of competition going on. Is that 
something that you think should influence the discussion of the 
NASA budget and the decisions we make in 2020 when there is, 
you know, a projected shortfall because of these overruns?
    Mr. Bridenstine. Absolutely. I mean, I do believe that, you 
know, NASA is an agency that can establish American leadership, 
that ultimately the NASA budget always returns far more than 
the investment. And I can give example after example. We 
actually promote the fact that we--we have a spinoff Twitter 
feed, NASA spinoff, so go to ``at NASA spinoff'' and you'll 
find all kinds of capabilities that have been developed. What 
NASA does we make available to the world, and then people use 
it for all sorts of things that are good.
    But humanity itself, the way we communicate, the way we 
navigate, you probably may have had DirecTV or dish network, 
maybe internet broadband from space, the--you know, using GPS, 
the way we predict weather, the way we understand the climate, 
certainly the way we do national security and defense, disaster 
relief, simple things that we don't normally think about like 
banking requires the GPS signal. Banking is fundamental to the 
United States of America. Every transaction requires that 
timing signal from GPS.
    So when you think about what space represents, it 
represents a fundamental increase in the standard of living not 
only for all Americans but for the entire world. And all of 
those capabilities are available because of a trail that was 
blazed by NASA, these investments if you will.
    And so the answer is yes, when the United States Congress 
makes determinations to invest in NASA, it always strengthens 
the United States of America, and it always lifts not just our 
citizens but citizens around the world in ways that we never 
even imagined when we make the investments. So I do 
fundamentally believe that NASA is a great investment for the 
United States.
    Mr. Lamb. Thank you. Just one more question. We have talked 
in this Committee before about developing the future workforce 
in aerospace and astrophysics, and one of the pieces of 
feedback we heard was that NASA's sort of comparative advantage 
when they're competing I guess against private-sector employers 
is the ability of NASA to give its workers really hands-on 
experience on one-of-a-kind projects, especially earlier in 
their career. Do you know if that's happening on James Webb? Is 
there a younger workforce that's able to take part in this and 
able to get the kind of experience that they wouldn't be 
getting anywhere else?
    Mr. Bridenstine. So that's a wonderful question. NASA is, 
as you can imagine--it has for seven years in a row been the 
number-one federal agency as far as workforce. When I see 
number one, the best place to work as determined by the workers 
themselves. So that's really an amazing capability. What that 
means is that NASA's workforce, we don't have a lot of 
turnover. In fact, it's about 4.5 percent per year, which means 
our workforce is aging, and that's just the reality.
    So we are using authorities right now to attract a younger 
workforce, a program called the Pathways Program that helps us 
get interns and ultimately recent college graduates, recent 
graduates from master's programs. We're doing what we can to 
get a younger workforce, and we are engaging them absolutely in 
projects. In fact, right now this summer, we have over 1,600 
students interning at NASA, and a lot of those interns, you 
know, they're--I'll tell you, most of them want to work for 
NASA. There's not going to be spots for all of them to work at 
NASA, but they're probably going to work in the--in a related 
field or for a contractor or something like that.
    So the answer is yes, we're doing what we can. The 
workforce is in fact aging. There is a bow wave that I am very 
concerned about because eventually there's going to be a lot of 
retirements coming. We've got to be very cognizant of that and 
preparing for it today. And of course--and it's my belief that 
NASA's doing what it can to make sure that we're prepared for 
that bow wave. But the workforce is aging. You're making a 
great point. We're doing what we can to make it younger.
    Mr. Lamb. Thank you. Mr. Chairman, I yield. Thank you.
    Chairman Smith. Thank you, Mr. Lamb.
    The gentleman from Illinois, Mr. Hultgren, is recognized 
for his questions.
    Mr. Hultgren. Thank you, Chairman, and thank you both for 
being here. This is an important hearing as we continue our 
oversight of the James Webb Space Telescope and review recent 
problems that we've had.
    Back in a hearing in 2011 on the issues with the telescope, 
I talked about my thoughts of the importance of American 
leadership in these fields and how this really is part of who 
we are as a Nation and the fact that we continue to be an 
exceptional Nation. It's important to acknowledge that we've 
had some very serious issues with project management over the 
life of this program, but we also have to remind ourselves that 
we're almost over the finish line, and this is truly where we 
all do want to be. Many people looked at the 2011 re-plan as 
the last chance. It's obviously not what we want to see.
    Administrator Bridenstine, thank you for your work. It's so 
good to see you back here and especially in the role that 
you're in, so congratulations and thanks for your work. Also, 
it was good to see you last night and again want to commend you 
on the vision that you're bringing to NASA and the direction 
that the President and the Administration has charged you with 
and NASA with. It's exciting, and you can just feel the 
excitement that so many are sharing with that.
    You know about my views on these world-leading projects. 
I've always been so proud of NASA's ability to inspire and 
bring others along, certainly from young children that you 
inspire in STEM to also our foreign partners on ISS or other 
ESA projects.
    I wondered if you could discuss some other projects that 
NASA is working on or planning and how the capabilities of 
James Webb are necessary for them to get the best science. In 
short, how many other investments are we making that rely on 
this initial investment, and what else do we have to lose if 
this does not go up?
    Mr. Bridenstine. So James Webb, when you think of it, the 
astrophysics division of the Science Mission Directorate, James 
Webb is one piece, and there are other missions out there that 
can help us ultimately that are less expensive, less capable 
but ultimately can help us determine how to best use James Webb 
as a force multiplier if you will. So it is absolutely true 
that we think of it as a system of systems and that some of the 
smaller missions inform how we want to use the flagship 
missions.
    That being said, we have to get this right. As Tom Young 
mentioned, there's over 300 parts that are single points of 
failure, which is why we are testing it and retesting it and 
testing it some more to make sure that it works in every single 
one of these--I want to be clear about this, too. Single--300 
single points of failure is a lot. That's not what NASA 
normally does. NASA does normally have projects that have a lot 
of single points of failure. The Curiosity rover that landed on 
Mars had over 70 single points of failure.
    It's a successful mission, overwhelmingly successful. We 
are discovering right now that, you know, there are complex 
organic compounds on Mars, which has never been determined 
before, and now we're finding them, which increases the 
probability of life. Methane, of course, cycles are now--we now 
know that methane cycles are commensurate with the seasons on 
Mars and in fact, you know, today, you are probably going to 
see reports that we have found what appears to be liquid water 
about 1.5 kilometers below the surface of Mars, amazing--that 
wasn't from Curiosity. That's from another satellite mission 
around Mars that has, you know, radar.
    So--but these are capabilities that we make investments in. 
They have single points of failure. This one's more complex. 
There's more single points of failure. We have to be more 
diligent about every aspect. That's why we're putting so much 
effort into mission assurance and other things. But it is a 
force multiplier, as you're acknowledging----
    Mr. Hultgren. Yes.
    Mr. Bridenstine. --that the other missions that we do are 
excellent. This actually makes them even better. It makes those 
investments even better.
    Mr. Hultgren. It's really helpful. Let me go down to one 
last quick question----
    Mr. Bridenstine. Yes, sir.
    Mr. Hultgren. --in my last minute here. Administrator, you 
brought up this little bit last night, but I think it would be 
good to get it on record. And this is also something I had 
asked former NASA Administrator Griffin and it's something that 
worries me as we work with other nations on world-leading 
science experiments. What is the first question you get from 
our foreign partners when you come to them and see how we can 
collaborate? I'm always worried about our budgetary process and 
especially CRs, but your comments last night did give me hope. 
I wondered if you could talk about what you're hearing from----
    Mr. Bridenstine. Yes.
    Mr. Hultgren. --collaborators?
    Mr. Bridenstine. Thank you for bringing that up. I just got 
back from the Farnborough Air Show. The heads of space agencies 
from throughout the world were there, and we had great 
collaborations. I was going with the mindset that I'm going to 
have to make a sales pitch, that our--you know, we're going 
forward to the moon with a sustainable architecture so that 
this time we can stay and then we're going to go on to Mars. We 
need all of our international partners involved and more, and 
we need not just our international partners but commercial 
partners. And I was going there to make a sales pitch.
    And overwhelmingly what I heard from our international 
partners, which we've established strong partnerships with I 
think it's over 90 different countries at this point, although 
they weren't all of this one event, what I heard overwhelmingly 
is tell us what we need to do. It wasn't me trying to make a 
sales pitch. They're ready to go.
    Mr. Hultgren. That's great.
    Mr. Bridenstine. They want direction and then they can sell 
their governments and we can move forward as a body. Space 
represents, in my view, a very strong soft-power tool for the 
United States of America to establish leadership. James Webb is 
a perfect example of that. The European Space Agency is 
providing two scientific instruments. They're providing 
scientists that are going to be integrated with our scientists 
on James Webb, and they're providing a launch capability.
    So the European Space Agency has really stepped up to the 
plate on James Webb. They're making sacrifices the same as 
we're making sacrifices because they, like us, believe it will 
be worth it.
    Mr. Hultgren. Great. Thank you.
    Mr. Lucas. [Presiding] The gentleman's time has expired.
    Mr. Hultgren. I yield back.
    Mr. Lucas. The Chair now recognizes the gentleman from 
Florida, Mr. Crist, for five minutes.
    Mr. Crist. Thank you, Mr. Chairman. And thank you, 
Administrator Bridenstine and Mr. Young, for being with us 
today. I appreciate your time.
    It's a concern of mine that the repeated schedule delays 
and cost overruns are putting increasing pressure on both NASA, 
as well as Northrop Grumman to prevent any further slippage. 
While it's important to keep schedule and cost under control, 
it's even more important in my opinion to make sure that we get 
this done right and that we don't cut any corners that could 
negatively impact mission success. So, Administrator 
Bridenstine, how will NASA be able to guarantee that the 
remaining integration and test work is not affected by this 
schedule pressure?
    Mr. Bridenstine. That's a wonderful question. The 
Independent Review Board made an assessment on both schedule 
and costs. NASA ran independently an assessment on schedule and 
costs through our agency program management council and our 
directorate program management council. We came to in essence 
the same conclusion. We wanted to make sure that there was 
adequate margin for both cost and schedule so that we weren't 
putting ourselves up against the wall. So we do believe there's 
adequate margin in there.
    At the same time we are incorporating all of the 
recommendations from the Independent Review Board. There are, 
you know, two recommendations that we haven't implemented yet 
but we're making progress on, and so I really believe that 
we're going to be able to accomplish the task. We've--again, we 
have taken NASA workforce and put that--put them on this task, 
highly qualified NASA workforce. We have strengthened the 
mission assurance piece, which is immediate feedback in 
response to every--you know, every item that goes on or off the 
spacecraft is being overseen by somebody who can stop the 
entire program immediately. We are providing direct oversight 
from the Goddard Space Flight Center, and we're providing, you 
know, direct oversight from NASA headquarters as well.
    So I do believe that we've taken all the tools that we have 
and we're using them to the best of our ability. And if we 
continue to execute how we're executing right now, we will be 
on cost, we will be on schedule, and we will have mission 
success.
    Mr. Crist. Okay. Thank you, sir.
    Mr. Young, would you add anything to that?
    Mr. Young. I thought that the description was really quite 
good that was just given. I think that the only thing I would 
underline is that when we do hit the hard spots--and there will 
be some--that mission success has got to be the defining 
criteria as to how we go forward. So I think your question is 
really excellent, and the idea is that while schedule and cost 
are important, they're not more important than mission success.
    Mr. Crist. Right.
    Mr. Young. And as long as we have that culture and 
philosophy, which I actually see existing, then I think that, 
you know, we'll proceed well, but that's got to be the hallmark 
as to how we go forward. And that's got to be communicated down 
to the lower--to working levels of the organization because 
right today, while we're having this hearing, my guess would be 
that at some--at a working level somebody made a decision that 
probably can have a real influence on the success of JWST, and 
we want to be sure that the criteria that they're making that 
decision gains us mission success and not schedule and cost.
    Mr. Crist. Great. Thank you, sir. Back to you, 
Administrator. What do you believe is NASA's responsibility 
when human error by contractors occurs, and what changes do you 
think might need to be made, if any, for contractor oversight.
    Mr. Bridenstine. So specifications and requirements that 
come from NASA ultimately need to be very crystal-clear. There 
can be no mistakes as NASA generates specifications and 
requirements. One of the challenges we saw during acoustic 
testing when you think about the sunshield covers, you know, 
the sunshields have to be folded up and then flown and--within 
a rocket faring and then deployed once in space.
    The sunshield covers had fasteners that kept them--and kept 
the sunshield covered. Those fasteners ultimately were held 
together by screws and bolts, and NASA did not specify what the 
torque specification requirements were. That's a failure of 
NASA. Should Northrop Grumman have maybe done things 
differently? Maybe, but NASA has responsibility here as well. 
And so it's on us to--mission success is on NASA. We can blame 
the contractor, but the reality is it's on us to have mission 
success.
    So accountability is critical. We have tools in place for 
accountability. We are at this point at the integration and 
testing phase. We are on the--again, I've said it before, I'm 
going to say it again. We're on the 5-yard line trying to punch 
it into the end zone. We're almost there. I believe we're going 
to get there, but going forward, we have to be--and this is one 
of the takeaways that we're going to take on a roadshow. When 
we generate specifications and requirements, we can't miss 
anything because ultimately mission success is on NASA.
    Mr. Crist. Thank you, sir.
    Mr. Chairman, I yield back my time.
    Chairman Smith. Thank you, Mr. Crist.
    The gentlewoman from Arizona, Mrs. Lesko, is recognized.
    Mrs. Lesko. Thank you, Mr. Chair. You know, I'm the second-
newest member to Congress, and I don't know if some of my 
fellow Congressmen are more used to these budget overruns or 
not, but when I read this, I thought it was outrageous that 
it's 19 times over the budget that was estimated and so far 
behind. And I really think this is just a perfect example of 
why the American public doesn't trust the Federal Government in 
spending its tax dollars. I really do. I just thought it was 
outrageous.
    So I guess my question, since I'm new, is what has been 
done since--in 2007 this was expected to be finished. Has 
Congress or NASA done anything in between besides what's just 
happening now with this IRB? And if they did do something, 
obviously, it didn't work. So I want to know if anything has 
been done in the past 11 years, and if so, why should we 
believe it's going to change in the future?
    Mr. Bridenstine. So in 2011 there was an Independent Review 
Board, and at the time the--all of this was still in 
development. Going back even further, one of the big challenges 
we had is changing requirements, changing specifications. What 
do we want the telescope to do, how far do we want to see? And 
if you go from--I mentioned this earlier. If you go from a four 
meter telescope to a 6.5 meter telescope--when I say telescope, 
I'm talking about the size of the mirror that actually reflects 
onto another mirror and then the sensors--you--when you change 
something that is this precise this much, it really has an 
impact on cost and schedule.
    In 2011, we had an independent review. We set a new 
baseline, and that new baseline actually had its launching in 
2019. And we got--again, we got all the way to the 5-yard line. 
And when we integrated the spacecraft element with the optical 
telescope element and did testing, we made all kinds of 
discoveries that were unfortunate, and not just unfortunate, 
problematic. And that's where we are today.
    So what we have to do now is, as Mr. Young has noted, we 
are going back and we're going to make sure because the way 
this telescope is going to be launched, you know, it's going to 
be a million miles away from Earth. We don't have any human 
spacecraft capability that can get up there to service it, and 
if we could, this telescope is too delicate to even service.
    That being said, we have to get it right the first time. So 
that's why we go through such extensive testing. Some of the 
testing, ultimately, we discovered things that are routine, 
which is why you test. Some of the testing demonstrated that we 
in fact have some embedded errors and some human errors, 
embedded problems and human errors, some embedded problems 
going back a number of years. Mr. Young mentioned that the 
thrusters were washed with the wrong solvent, and that corroded 
some seals. That was done years ago, and we only discovered in 
testing that that had happened. Again, this is why we test. We 
want to make these mistakes here on Earth because that mistake, 
if it was in space, it would be too late. It can't be fixed.
    So some of it is routine testing that ultimately we're 
making discoveries that we need to make discoveries on, and 
others, we're finding errors that occurred years ago, and some 
of those errors include, you know, the--using the wrong solvent 
to wash the thrusters, which is why we're going through right 
now and we are starting from a baseline and saying if we have 
to find every embedded error, that we have to go back to the 
very beginning of every component on this spacecraft and make 
sure we haven't made any errors, which is what we're doing 
because there's no room for failure once it's in space. And 
that's what we're doing. Mission success is the primary 
objective. I believe that we're there, and here we are 
requesting an extra $800 million and a few more years, and I 
think we can get it done.
    Mrs. Lesko. Thank you, Mr. Chair. Yes, I appreciate that 
we're under a new Administration and that you're new and so you 
have to take what was given you. I just again want to express 
my frustration that we're talking about taxpayer dollars, and 
it's very frustrating to me and other taxpayers that this is so 
much of a cost overrun, and although I've heard testimony how 
important it is, I understand that, it's very frustrating. I 
think we need to do a better job of making sure that we are not 
so far off the mark. Thank you----
    Mr. Bridenstine. Yes, ma'am.
    Mrs. Lesko. --and I yield back my time.
    Chairman Smith. Thank you, Mrs. Lesko.
    And the gentleman from California, Mr. Takano, is 
recognized.
    Mr. Takano. Welcome back, Administrator Bridenstine.
    Mr. Bridenstine. Thank you, sir.
    Mr. Takano. It's good to see you. And congratulations. I 
didn't get to say that to you earlier.
    Mr. Bridenstine. Thank you.
    Mr. Takano. And thank you, Mr. Young, for being here.
    Administrator, you just mentioned an $800 million figure. 
Is that for fiscal year 2020 and fiscal year 2021?
    Mr. Bridenstine. It gets us through launch, which would be 
through March 30 of 2021, which is the new launch date.
    Mr. Takano. So March--so you have enough money for fiscal 
year 2019----
    Mr. Bridenstine. We do.
    Mr. Takano. --correct?
    Mr. Bridenstine. That's correct.
    Mr. Takano. And so this supplemental that you're asking for 
is for the year 2021?
    Mr. Bridenstine. It's really--we're not really asking for a 
supplemental, although if you'd like to give it to us, we'll 
take it.
    Mr. Takano. Okay.
    Mr. Bridenstine. The--what the law requires is that if we 
hit $800 billion--or $8 billion--gosh, dang----
    Mr. Takano. Eight hundred million.
    Mr. Bridenstine. Eight hundred. But if we hit $8 billion, 
the program is no longer authorized. And so, ultimately in the 
development we haven't hit it yet, but we will soon hit $8 
billion and we'll need Congress to reauthorize it if we're 
going to continue.
    Mr. Takano. So you're asking for an authorization----
    Mr. Bridenstine. That's correct.
    Mr. Takano. --of an additional $800 million----
    Mr. Bridenstine. Yes.
    Mr. Takano. --for the program?
    Mr. Bridenstine. Yes. And that money could come from NASA 
or if you want to appropriate additional, it could come from 
there as well.
    Mr. Takano. You know, we may have to do that. I might 
prefer not having to choose between our children.
    Mr. Bridenstine. I know.
    Mr. Takano. Right? But we have hard choices to make here. 
So $800 million. Let's see. The question I wanted to ask. 
Administrator, given that we're moving the launch date, have 
you hired graduate students and plan for graduate student work 
based on the October 18 launch date?
    Mr. Bridenstine. The March 30 launch date of 2021, have we 
hired graduate----
    Mr. Takano. Well, no, because given that you----
    Mr. Bridenstine. Oh, oh, oh, I see----
    Mr. Takano. I'm wondering if you did hire graduate students 
based on the old----
    Mr. Bridenstine. The old launch date.
    Mr. Takano. --launch date----
    Mr. Bridenstine. So----
    Mr. Takano. Can you tell me what's going on with that?
    Mr. Bridenstine. So the launch is actually being provided 
by the European Space Agency on an Ariane 5, so they are our 
international partner on this particular project. And so to my 
knowledge we haven't hired any graduate students to help us 
with the launch. It's being provided by the European Space 
Agency.
    Mr. Takano. All right. You might just want to check up----
    Mr. Bridenstine. I will.
    Mr. Takano. --on that detail because if we've hired 
graduate students----
    Mr. Bridenstine. Right.
    Mr. Takano. --based on the launch date--but maybe you've 
delayed doing that because you were uncertain about when you 
are going to be able to launch.
    Mr. Bridenstine. Right.
    Mr. Takano. How many cost overrun proposals has Northrop 
submitted to NASA since the original JWST re-plan agreement in 
2011? Do you know that?
    Mr. Bridenstine. I don't know offhand, but----
    Mr. Takano. If you could get that----
    Mr. Bridenstine. Yes, I will. I will get that.
    Mr. Takano. If you could get that to my office----
    Mr. Bridenstine. I'll take that for the record.
    Mr. Takano. And if you could also get me a total on the 
value of the cost overrun proposals and whether they included 
any award fees.
    Mr. Bridenstine. I will.
    Mr. Takano. That'd be helpful for me to know.
    You know, I want to go back to the workforce training 
issues that were kind of gone over by I think Mr. Hultgren and 
Mr. Lamb. You spoke about the unique workforce that you have 
and the interns and the programs, and you're worried about the 
aging out of the current workforce.
    Mr. Bridenstine. Yes.
    Mr. Takano. And it's a pretty specialized workforce. What 
can Congress do to support opportunities for relevant workforce 
training and experience beyond what it has now?
    Mr. Bridenstine. That's a----
    Mr. Takano. Can we do more?
    Mr. Bridenstine. Absolutely. Thank you for asking because 
I'll be sure to let you know the--one thing that we have been 
talking about a lot at NASA is the competition that exists 
today that might not have existed for NASA centers even maybe, 
you know, 20 or 30 years ago. So if you're a young person in 
Houston, Texas, there's, you know, an amazing energy industry 
down there that is trying to gobble up all of the electrical 
engineers, mechanical engineers, chemical engineers. If you're 
a young person out in the San Francisco Bay area where Ames 
Research Center is, there's all of the tech companies that are 
gobbling up those types of talents.
    And so it's--the challenge that NASA has is ultimately the 
way a young person can get a job with NASA is to apply online. 
And in the six months that follow, you may or may not get a 
response, let alone get a job. And this is a challenge that we 
need to--there is a challenge in the way----
    Mr. Takano. So there's a personnel office problem, 
inefficiencies there. The applications are kind of stuck is 
what you're telling me?
    Mr. Bridenstine. Well, that's a piece of it, but there's 
also a piece of it that there's a body of law that we have to 
follow in order to hire somebody. And a lot of our competitors 
for that talent, private companies, they can go to a job fair 
and hire somebody on the spot. And it's not--you know, when I 
say we're competing, we're not competing against the people 
that supply services to us necessarily. We're competing against 
entire other industries for that talent. And so when they can 
hire on the spot and when we hire, we have to go through this 
elaborate process, we lose. We lose a lot of talent. So direct-
hire authority is something that we would love to have.
    Mr. Takano. Mr. Chairman, I'm sorry for going over, but I 
think this is a rich topic and I hope we can maybe explore this 
topic more with more hearings about----
    Chairman Smith. We will.
    Mr. Takano. I know we've done some stuff on workforce 
development, but I've heard a statistic that Mexico is 
producing more mechanical engineers than we are in the United 
States, and so I think--this is a broader topic and I hope we 
can devote more time to it later.
    Chairman Smith. Okay.
    Mr. Takano. Thanks.
    Chairman Smith. Thank you, Mr. Takano.
    The gentleman from Texas, Mr. Weber, is recognized for 
questions.
    Mr. Weber. Thank you, Mr. Chairman.
    To paraphrase JFK, we choose to take risks not because 
they're known or easy but because they're unknown and they're 
hard. So you just answered the question I had Administrator 
Bridenstine. And welcome back, by the way.
    Mr. Bridenstine. Thank you.
    Mr. Weber. We kind of miss the days you sat up here and 
make snide remarks about some of the other Members.
    Mr. Bridenstine. Now you're making them about me.
    Mr. Weber. I know. Did I say that out loud? I'm encouraged 
to hear that it's important that we lead in space. Dr. Babin 
had a conversation--I forget with which one of you it was 
with--about the fact that we were cost overrun and behind 
schedule, and that washurting us with a national security and 
with the industrial base. And I would argue exactly the 
opposite, that it's actually helping us. And when you said 
there's 90 countries who are ready to help with this, I was so 
encouraged by that because it shows the world that we are 
determined to be the space leader, and we're going to do it 
come hell or high water, if that applies to the amount of water 
we found here the other day. So thank you for saying that. I'm 
encouraged by that, Jim.
    Mr. Young, in the IGR report you made was it 32 
recommendations?
    Mr. Young. Yes, sir.
    Mr. Weber. Three hundred and seven failure areas, is that 
what I understand? And then you said all, and I'm quoting, 
``All of us need to focus on maximizing the program,'' okay, 
end quote. Who does that for those 32 recommendations and 307 
failure areas? Do you make recommendations about who actually 
takes that responsibility?
    Mr. Young. I think it's pretty clear for each of those who 
has the responsibility. We--the--our particular activity was 
chaired by the--was--excuse me, was established by the 
Associate Administrator of Space Science. And so that in 
essence is where our report went, but we did report directly to 
the Administrator. And we did highlight some areas where we 
want to get special attention, so some are aimed towards 
Northrop Grumman, some are aimed towards NASA Goddard, and some 
are aimed towards NASA headquarters. So the answer is there are 
very specific indicators as to who should be responsible for 
each and who should be necessarily responding.
    Mr. Weber. Well, that's what I want to hear. The famous 
example about Edison and the lightbulb and when somebody said 
you failed a thousand times, doesn't that discourage you? And 
he said, what are you talking about? We're a thousand times 
closer.
    Mr. Bridenstine. Yes.
    Mr. Weber. So if we're learning from this, if we're going 
to use this to our benefit and show the world that we can do 
this, I think it's a good thing.
    Administrator Bridenstine, I want to come back to you. You 
named categories of missions in earlier comments. You said 
strategic, flagship, and----
    Mr. Bridenstine. Just different sizes of missions.
    Mr. Weber. There's different sizes of missions, okay.
    Mr. Bridenstine. So the idea being that for smaller 
missions there's a lot less risk because there's a lot less--
it's not as complicated, we don't spend as much money, and if 
there's a failure, it's one failure of, say, eight different 
small missions. But for a flagship mission or a strategic 
mission----
    Mr. Weber. It's huge.
    Mr. Bridenstine. --it's--yes, it's a big impact.
    Mr. Weber. Right. Are you able to give us a percentage of 
those three categories and how much is in each category?
    Mr. Bridenstine. Well, given where we are with James Webb, 
that's by far the largest category at this point.
    Mr. Weber. Sure.
    Mr. Bridenstine. So----
    Mr. Weber. I've been there to see it by the way.
    Mr. Bridenstine. That's good. That's good.
    Mr. Weber. Yes.
    Mr. Bridenstine. It's impressive. So the--but I can get you 
a breakdown, a very specific breakdown of missions and costs.
    Mr. Weber. Right. And then, Mr. Young, back to you. You 
made a comment earlier about the contractors who bid the 
lowest. What did you call it? Lowest--there was a----
    Mr. Young. Lowest credible cost.
    Mr. Weber. Lowest credible cost. How do we fix that?
    Mr. Young. Well, you know, contractors are going to do, you 
know, what you would expect, and that is they're going to bid 
in accordance to what they think will be the determining factor 
in winning the contract so----
    Mr. Weber. So do you need authorization or change in the 
law from Congress on how the bidding process works?
    Mr. Young. I personally don't think so. I mean, I think it 
is much more the contracting organization establishing criteria 
for who wins a contract to be consistent with the--what the 
particular contracting organization wants to get from the 
contractors. But people--the contractors, you know, are very 
capable in figuring out what is the criteria that will maximize 
their chance of winning, and they're going to--they're going to 
perform in that particular manner. And the contracting 
organization has to change it such that the criteria are such 
that it gets the performance that that one in the bids that 
they get. And my personal belief is that there is adequate law 
and legislation to allow that to happen today.
    Mr. Weber. Okay. Mr. Bridenstine, you want to weigh in on 
that?
    Mr. Bridenstine. Well, just that it is important for NASA, 
when you think about the way we do contracting and we have, you 
know, contracting officer representatives, we have contractors, 
and then we have program managers and project managers, when we 
go through a contract, it is critically important that NASA be 
every bit as smart on the capabilities and the requirements 
and--as the contractor that we are buying from. We have to be 
smarter than the people we are buying from to know whether or 
not what they are telling us is accurate and can be 
accomplished.
    Mr. Weber. There's a Latin term for that. Caveat----
    Mr. Bridenstine. Okay.
    Mr. Weber. --emptor.
    Mr. Bridenstine. Okay.
    Mr. Weber. Okay? Buyer beware I think it is. But look----
    Mr. Bridenstine. Sure.
    Mr. Weber. --thank you. You guys are doing great, and we 
appreciate your commitment. And short of sounding a little 
hokay, I think you're helping to continue to make America great 
again, always have. We appreciate NASA.
    Mr. Bridenstine. Thank you.
    Mr. Weber. Thank you.
    Mr. Lucas. [Presiding] The gentleman's time is expired.
    The Chair now turns to the gentleman from Colorado, Mr. 
Perlmutter, for five minutes.
    Mr. Perlmutter. Thank you.
    Mr. Bridenstine. Twenty thirty-three.
    Mr. Perlmutter. Gentlemen, thank you for your testimony. 
Obviously--what did I--everybody's leaving. Oh, my gosh.
    Anyway, just--no, obviously, thank you for your testimony. 
I have confidence in both of you and in your review of 
something that really is, you know, disappointing in a lot of 
respects, but obviously this is new territory that's being 
broken. There are some contractual things. And, Mr. Young, I 
want to talk to you about them in a second. But if you have 
confidence--and I think there--a specific question came form 
Mr. Lipinski to you, Tom, that, you know, can this get done in 
this time frame that's been set for $800 million? And you have 
confidence that it can. That's good enough for me honestly.
    Let me just ask you some basic questions because there is 
some contractual stuff in here that I think really are good 
learning tools for you at NASA, for the industry generally. 
And, Mr. Bridenstine, you talked about it. So my dad was in the 
construction business, all right? He said it was always easiest 
to fix a problem at the blueprint stage before you built the 
building. And in yours you've got an added complexity, which is 
the design phase, the construction phase, and then it's a 
million-miles-out-there phase. So we're in the--sort of the 
construction phase where you can fix it here and not a million 
miles away and it's a much better use of our money to do it 
here.
    In this process, Mr. Young, in this next two or three 
years, is there--see, I think one of the things that happened 
here, there was a critical path of some sort that was used. And 
you had vendors. Northrop Grumman was the general contractor, 
had vendors to it, and then--and now we're at the integration 
stage. Could there have been something different in terms of 
the critical path that would have allowed us to see these 
mistakes, which we know can happen when people are putting the 
screws in? Is there a different way to do this critical path? 
Could we have integrated this thing earlier? That's my first 
question.
    Mr. Young. It's a good question. Let me touch on two 
aspects of it. Relative to embedded problems, you know, that 
are discovered later, you know, the technique that we utilize 
to make sure that they don't happen is to really go through a 
progressive test program. And so what it really says is that if 
you have a piece of hardware and you start out with it, you 
test it as a standalone item, and so you know the--I'll call it 
the pedigree again or the quality of that hardware all the way 
through. And so if you get to the particular point that you've 
installed out on the spacecraft before you have gone through 
each of these steps, you have made yourself vulnerable to an 
embedded problem being there that has a much larger 
implication.
    I've got to really say that we did not go back through and 
trace the history, you know, of each of these items because 
what we were trying to do is assess where we are today and what 
do we have to do to get to a successful completion.
    Mr. Perlmutter. I guess what I'd like you to do, though, is 
when you guys are doing sort of an after, you know, project 
kind of analysis, look at the critical-path piece of this.
    Mr. Young. It needs to be done. And, typically, if you walk 
through that process that you're asking about, which is 
probably no different than the construction process, by the 
way, I would argue, if each step of the way you know the 
quality of that particular hardware, then you are pretty 
confident that you have not moved too far to the right of an 
embedded problem without discovering it. So that's the process 
of doing it.
    And I do think you raise a really good point. As a lesson 
learned, it would probably be a good thing to take all of these 
and go back and look at how the step-by-step test program was 
implemented.
    Mr. Perlmutter. I'm going to change the subject just a 
little bit. So I feel like we have three opportunity costs kind 
of lost here. One is the billion dollars or $800 million, 
which, you know, I'm reading something today says that the 
majority party, the Republicans are thinking of another $600 
billion tax cut on top of the 1.5 or $1,500 billion tax cut. We 
could fix this problem a lot with that revenue that we are 
foregoing.
    But I think the two issues that I'm particularly concerned 
about are the lost science and the reallocation of assets away 
from other projects that NASA may have. If we were to authorize 
and appropriate another $800 million, could you keep those 
other projects on time or keep them going?
    Mr. Lucas. The gentleman's time is expired. The witness may 
answer the question, though.
    Mr. Bridenstine. The answer is yes, sir, we absolutely 
could. I would also argue that some of those projects haven't 
even started yet, so we would in essence start new projects 
that otherwise wouldn't get started if we didn't have the 
additional money.
    Mr. Perlmutter. Okay. Thank you.
    Mr. Lucas. The--
    Mr. Perlmutter. And I yield back. Thanks, Mr. Chairman.
    Mr. Lucas. The gentleman yields back.
    The Chair now turns to the gentleman from Louisiana, Mr. 
Higgins, for 5 minutes.
    Mr. Higgins. Thank you, Mr. Chairman. Mr. Chairman, I 
support this program and the completion of this crucial 
project. I believe the money should come from offsets in other 
areas.
    Like my colleagues, I voice my concern regarding the cost 
overruns and schedule delays, but these guys are doing 
something that has never been done before. And although all 
Americans recall the infamous ``Bridge to Nowhere,'' the 
endeavor we're speaking of today, Mr. Chairman, is a bridge to 
everywhere. So I concur with my colleagues. I believe that the 
United States should be number one on Earth, and thus, we must 
be number one in space. As a Christian-principled man, it's 
fascinating to me to observe as science begins to come to grips 
with ``Let there be light.'' And this is the mission that could 
bring us to a new level of understanding never dreamed of 
before.
    Mr. Bridenstine, thank you for your service, sir. The 
Independent Review Board recommends that NASA and Northrop 
Grumman Aerospace Systems should take a number of actions to 
address human errors during the integration and testing phase 
to prevent, or at the very least detect, embedded problems 
before they affect a project's schedule. Please elaborate on 
what actions NASA has taken to ensure that Northrop Grumman is 
properly implementing the recommendations that the Independent 
Review Board suggested to ensure that human error and embedded 
problems will not continue.
    Mr. Bridenstine. So one of the reasons that we have 
extended the time of the program is ultimately to go back and 
look at all of the components that go into the entire 
spacecraft from the beginning and ultimately to determine 
whether or not there are other embedded problems like the issue 
we had with the fasteners, like the issue we had with using the 
wrong solvent to clean the thrusters. Are there any other of 
those issues that might have been accomplished years ago that 
ultimately could end up revealing themselves in space? And what 
we want to do is make sure--
    Mr. Higgins. And fix that on the ground.
    Mr. Bridenstine. And fix it on the ground.
    Mr. Higgins. Understood. So you're very focused on the 32 
recommendations that have been concluded by the review board?
    Mr. Bridenstine. Yes, sir. Absolutely.
    Mr. Higgins. And for the record, Mr. Young, in regard to 
NASA and Northrop Grumman's plan for implementing your board's 
recommendations, how soon do you recommend a review of those 
implementation plans?
    Mr. Young. That's really a good question. I actually--and 
it's a decision for NASA to decide, you know, when they want 
that to be done. My personal judgment is that in the next 
couple of months the course is going to be set for JWST and 
hopefully the success--
    Mr. Higgins. Mr. Bridenstine seems to be very animated and 
sincere about following your recommendations. Can you provide 
for this Committee, sir, in writing a recommendation what you 
believe should be a time frame for a review of those 
implementations, say, 90 days or whatever you believe it would 
be? Mr. Young, can you provide that?
    Mr. Young. Yes. Yes, sir, I can.
    Mr. Higgins. And, Mr. Bridenstine, will you provide that as 
well, that you'll concur with that?
    Mr. Bridenstine. Absolutely. In fact----
    Mr. Higgins. Okay. Let me jump forward. These cost 
overruns, they predate my service at the Congressional level. 
They predate your service for NASA, sir, so we're just living 
with what we have. But we have to finish this thing. And it's 
fascinating, as you pointed out, that the largest issue you're 
dealing with is a never-before-designed spaceship. Now, had 
that spaceship been designed prior, would we have eliminated a 
lot of the problems that we've encountered with cost overruns?
    Mr. Bridenstine. Absolutely.
    Mr. Higgins. So is it not reasonable to conclude that 
future NASA projects and future space exploration projects will 
certainly draw upon the knowledge that you all are frontiering 
right now and pioneering, engineering, regarding heat shields 
in this particular type of spacecraft? Is it not reasonable to 
conclude that the work you're doing now and the treasure we're 
investing now will benefit future projects and future 
generations of all mankind?
    Mr. Bridenstine. Absolutely. We have bought down a ton of 
risk through this process.
    Mr. Higgins. Thank you, Mr. Chairman. I yield.
    Mr. Lucas. The gentleman's time is expired.
    The Chair now recognizes the gentleman from Illinois, Mr. 
Foster, for five minutes.
    Mr. Foster. Thank you, Mr. Chairman. Thank you to our 
witnesses.
    As someone who's actually managed not multibillion but 
multimillion dollar technical projects for the government, you 
know, I probably stayed up way too late last night reading the, 
I guess, 69 pages of your independent review report. And I was 
quite impressed with the top-line recommendations you made. And 
I have a couple of concerns with NASA's plan for dealing with 
some of them.
    But let's see. First, Mr. Bridenstine, you emphasized that 
there is now the ability for more people to say stop when they 
see a technical thing. Did anyone for the two major 
difficulties you've had, either the thrusters solving problem 
or the sunshield covers, did anyone at any point say stop and 
was shouted down?
    Mr. Bridenstine. As far as the thrusters go, the--my 
understanding is the technician--and this was years ago. The 
technician ultimately did ask for permission to use a specific 
solvent and was given the go-ahead by mission assurance. Now, 
that was a mistake that was made a couple years ago and in 
testing--
    Mr. Foster. Right, but it was not an instance, you know, 
like the shuttle O-ring situation----
    Mr. Bridenstine. No.
    Mr. Foster. --where engineers got overruled--and now on the 
other one, the--which was I think a secondary problem with the 
redesign of the fastener attachment plate with concerns about 
snagging, and so a redesign of which nuts and bolts would be 
used, and so was that--I guess this is for Mr. Young. Was that 
under configuration control when someone changed the design of 
how those attachments would be made? And was there a traceable 
signature authority when that design change was made or was 
this something where a technician sort of said, okay, maybe we 
should use a different kind of nut and bolt on this?
    Mr. Young. We did not go through all the paper, so I want 
to be clear about that, but my assumption is it was under 
configuration control and there was a procedure that was 
written and established by Northrop Grumman that was 
implemented by the subcontractor in installing them, so there 
was a change process. The change was documented. The change was 
incorporated in a procedure, and that procedure was provided to 
the subcontractor as to how the screws and nuts should be 
installed.
    Mr. Foster. Okay. So if you could get actually as a follow-
up, the actual change control response, what the formalities of 
that actually were for this change that went in because I think 
a simple thing like having a nylon insert in the bolt would 
probably change the project history a little bit.
    Now, into the big picture, the cost overrun, which in 
aggregate has been roughly tripling. I'm painfully familiar 
with a similar thing for the superconducting super collider in 
high-energy physics where the costs roughly doubled and 
eventually resulted in the cancelation. When you look in 
retrospect at the cost growth, it was almost entirely 
attributable to a decision that was made by the Department of 
Energy to task essentially a military contractor to reproduce a 
laboratory in a place--in a greenfield site with completely 
unrealistic cost estimates for that.
    And so if you look at the cost growth, this was a project 
that was split between, you know, Goddard and Northrop Grumman 
and as well as I guess the launch facilities. Can you make 
generalities about where most of the cost growth occurred? 
Because there may be lessons learned about when you split 
projects, there may be better ways to do that split. Mr. Young, 
I guess. Well, it's a hot potato. Okay.
    Mr. Bridenstine. So the--I think originally the cost growth 
came from the idea that we changed requirements. We wanted to 
see further. We wanted to see further back in time, which 
required us to go with a larger mirror. And when that 
determination was made, the cost really went up very, very 
fast. And we made a decision--when I say we, it was NASA back 
in, you know, the mid-2000s--made a decision to go with the 
much bigger, more intricate kind of--
    Mr. Foster. So that was a high-level decision----
    Mr. Bridenstine. It was.
    Mr. Foster. --in terms of the execution of the project, 
independent of that. Are there any generalities that can be 
made about the circumstances under which--did most of the cost 
growth happen in one area or another, in the scientific 
instrument package versus the bus, and so on or just the 
schedule slippage?
    Mr. Bridenstine. I think the number-one thing was just 
excessive optimism from the beginning. We didn't know what we 
didn't know, and we believed that a lot of these, you know, 
very new technologies could be developed at a much lesser cost 
and a lot less time. And as we went through the process, we 
discovered that there's a lot to be developed that we didn't 
understand, and of course we have learned from that.
    Mr. Foster. Yes. And, your report highlights these 
reporting gaps that happen very often between Goddard and 
Northrop Grumman. And I just wonder if there are lessons to be 
learned. Do future projects like WFIRST have that same sort of 
split responsibility between contractor and NASA----
    Mr. Bridenstine. So--
    Mr. Foster. --as the lab?
    Mr. Bridenstine. --WFIRST is ultimately a mission that is 
far less complex than what we have with the James Webb Space 
Telescope, so--
    Mr. Foster. Does it have the same split reporting problems 
that were highlighted----
    Mr. Lucas. The gentleman's time is expired but the 
witnesses may answer the question.
    Mr. Bridenstine. It--the organizational change that we made 
on James Webb Space Telescope ultimately will apply to WFIRST.
    Mr. Young. I think the other comment to make is I don't--
the split's not unusual. In other words, it's common practice 
for NASA to have a prime contractor, so I think NASA has an 
overarching responsibility of--you know, for the total program, 
the prime contractor has a responsibility for executing their 
contract. And I don't think that's at all unusual, and I think 
it's--you know, it will be the way that many programs go 
forward in the future. And what it really says is that, you 
know, we do know how and we need to implement both on JWST and 
future missions a communications mechanism that is recognized, 
that that's the way we actually execute and implement projects.
    Mr. Foster. Thank you, and I yield back.
    Mr. Lucas. The gentleman's time is expired.
    The Chair now recognizes the gentleman from Alabama, Mr. 
Palmer, for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    You know, we've had a lot of talk about the prospects of a 
successful project and looking back and looking forward, and I 
want to do that right now on the project because I appreciate 
all the rah-rah that's gone on here. But in my opinion, the 
purpose of this hearing is to try to determine what happened 
and how we can prevent this from happening in the future.
    So, Administrator Bridenstine, I'm going to ask you this, 
and, Mr. Young, you can jump in, but I don't want long answers 
because I've got a lot of questions, and if I have to, I'll 
stick around and do a second round. But who was responsible for 
the design on the front end? Was that NASA or Northrop?
    Mr. Bridenstine. NASA.
    Mr. Palmer. Okay. Who was responsible for the estimating on 
the cost side?
    Mr. Bridenstine. We received proposals and then we make 
determinations based on those proposals.
    Mr. Palmer. So you had a combination of NASA doing the 
design, Northrop Grumman evaluating the design and presenting a 
proposal that told you $500 million?
    Mr. Bridenstine. We ultimately--NASA is responsible for 
generating the requirements and the specifications.
    Mr. Palmer. Did anyone take into account the feasibility of 
the project at the time to determine, first of all, was the 
project feasible and was the cost in line with the feasibility 
of the project?
    Mr. Bridenstine. Yes.
    Mr. Palmer. And--but you still took--it's 2018, 22 years 
later. You still don't have it done, and it's 19 times the 
initial estimate. How is that possible?
    Mr. Bridenstine. Again, going back in time, the 
specifications changed. We determine--
    Mr. Palmer. I understand that----
    Mr. Bridenstine. Sure.
    Mr. Palmer. --that-- I worked for two international 
engineering companies before I started a think tank, and we 
used to joke at one of them in particular that there's never a 
time to do it right, but there's always time to do it over. 
That's bad for everybody. And when you do a cost-plus contract 
and somebody else is paying the cost, the taxpayers, I just see 
it time and time again, whether it's military contracts, 
whether it's NASA, that there are a number of things that 
happen. They get concerned that they won't get the funding from 
Congress so they start a project before it's ripe, and then you 
have cost overruns. There's a NASA project right now I think 
that within six or eight months it was 50 percent cost overrun. 
And then you have things like this. The initial estimate was 
$500 million. With the launch cost, you're going to be at, 
what, $9.6 billion?
    Mr. Bridenstine. That's a lifecycle cost.
    Mr. Palmer. Lifecycle cost. And I just have to wonder if 
we'd gone ahead and built the project to the initial 
specifications and launched it, how much would we have learned 
from that launch that could have been applied to a second 
generation, a third generation?
    Mr. Bridenstine. You're absolutely right. That's a 
wonderful point. I agree completely.
    Mr. Palmer. Well, that's the kind of stuff that drives me 
crazy.
    Mr. Bridenstine. Yes.
    Mr. Palmer. I mean, we're looking right now at a $21.5 
trillion debt, and if we have another project that takes 20 
years to complete, it won't get completed because we can't 
afford it. We'll be bankrupt. And we keep doing stuff like 
this, and we don't hold people accountable for doing it. The 
Committee doesn't exercise the proper oversight. I'm sitting 
here wondering after 22 years, Mr. Chairman, where's the 
oversight and where was the effort to hold anybody accountable 
for this? And this goes on and on and on.
    I think what we're trying to accomplish here is 
breathtaking in its scope, but we can't continue to operate 
like this. I mean, somebody at some point should have had some 
oversight over this, and maybe we would have launched this ten 
years ago and we would have learned an enormous amount from it 
so that the money we're spending now really would've had a 
magnificent return. But we haven't gotten off the ground. So 
that's the kind of stuff that I think we've got to deal with.
    For NASA to be able to achieve its mission, accomplish the 
objectives that NASA has set for itself, we have got to rethink 
how we do these contracts. I'm not a big proponent of cost-plus 
at all. I think if we did these things where we fund it up 
front at the design phase and then a certain percent at the 
next phase of construction, then you do the review, you correct 
the mistakes, and then you launch and you pay off after launch, 
I think we'd see things that cost a whole lot less and we'd see 
things get off the ground a whole lot quicker. So how do you 
want to respond to that as the new Administrator?
    Mr. Bridenstine. Well, I would say that the fundamental 
question is would we do it again? And I would say that not this 
way, we would not. The question is will it be worth it in the 
end? And we don't have an answer for that right now, but I 
believe it will be.
    Mr. Palmer. Well, I sat here and listened to you talk about 
your hopes, your visions for this project and NASA, and I heard 
one of our Democratic colleagues comment on you as the 
Administrator, and I just wonder why it took so long to confirm 
you. I appreciate what you're trying to do, and I want you to 
know that if there's any help that I can provide to you--I 
think I can speak for the Committee as well--that we can 
provide to you, particularly in avoiding other project mishaps 
like we've had for this, I think we would be more than happy to 
assist in any way we can.
    With that, Mr. Chairman, I yield back.
    Mr. Lucas. The gentleman yields back, and before I turn to 
the gentleman from New York, I'd simply note to him I'm after 
you, so you're not last, sir.
    Mr. Tonko. Okay.
    Mr. Lucas. The Chair recognizes the gentleman from New 
York, Mr. Tonko, for five minutes.
    Mr. Tonko. Thank you. I thank the Chair and the Ranking 
Member for the opportunity.
    Personally, I was inspired by the years leading up to the 
moon landing. I was in high school as we competed in the space 
race against the Soviet Union for spaceflight supremacy. We had 
a passionate resolve to use science and engineering to beat our 
rivals, and after years of investing and innovating, America 
led the world in this endeavor, and our Nation was the first to 
land on the moon. The memories from that day forever linger in 
my mind. It inspired me to believe that with the will and 
necessary resources America would lead the way in continued 
exploration, research, and development. It also inspired me to 
embrace an education in science and engineering.
    So I am excited by the James Webb Space Telescope and even 
more so excited by the potential impact this work and related 
discoveries can have on engaging the public and inspiring our 
next generation of scientists and engineers. We should continue 
discussions on how to ensure mission success and how to do this 
the right way even if it takes longer than we would've liked.
    On a different note, though, I would like to hear more on 
how NASA is utilizing Webb to engage the public and to build 
our next generation of scientists and engineers. I've told 
students in the capital region of New York that I represent 
that, through STEM, you can be the scientist who learns new 
secrets about our universe, you can be that astronaut who lands 
on Mars, or you can be that doctor or researcher who discovers 
the path to better ensure a healthy passage on long 
spaceflights, or you can be the engineer who designs or invents 
a new technology or the spaceship that will take us far past 
our own galaxy.
    So, Administrator Bridenstine, what is NASA working on to 
engage the public on the inspirational undertaking?
    Mr. Bridenstine. That's a wonderful question, Congressman 
Tonko, and important because NASA is the one agency I believe 
in the U.S. Government more than any others that can inspire 
that next generation of--as you so correctly identified and to 
have an investment like this and not take advantage of it to 
accomplish that I think would be a massive mistake. So what we 
do with James Webb is critically important for that.
    One of the first things that we're going to do is--it's--
the data and the information and the science that we receive 
from James Webb is going to be made available to the entire 
world, and it's going to be made available for free. We want 
people to know and understand what we're discovering and let 
them take the data and the information and make discoveries of 
their own, which we believe all around the world people will 
have the opportunity to do.
    It's also true that we want to engage the public, as you've 
correctly identified, by having people come up with ideas on 
how to utilize the James Webb Space Telescope in ways that 
we're not even thinking about right now. What are the 
scientific inquiries that others all around the world have? And 
we're seeing right now an interest from nations all over the 
world with their universities and their scientists making 
recommendations to NASA. And of course we're compiling a lot 
of--there's more requests for utilization than there is ability 
to utilize, which is a good problem to have. And so it--I think 
it will provide a source of inspiration from around the world.
    But more than any of that, just like we've seen with the 
Hubble, taking the new science that we learn and rewriting 
textbooks is game-changing. And so it will have--again, we're 
rewriting science textbooks. That's what NASA does, and that's 
what this will be, and that in itself is going to engage the 
public in ways that right now we don't even understand so----
    Mr. Tonko. Are there--and I appreciate that, and I think 
that's a good outcome. Are there other specific things that 
NASA is doing to communicate and involve our students?
    Mr. Bridenstine. Certainly, NASA has a number of different 
programs that get universities involved and get children 
involved. And yes, so that--you know, we have an Office of 
Education, for example. We have an Office of Communications, 
and we're very active on social media. We have millions and 
millions of people that follow us. And every new discovery that 
we make, we're communicating it out to the public and trying to 
inspire that next--you know, the 7-year-old to become the next, 
you know, Neil Armstrong. We're doing that all the time.
    Mr. Tonko. Well, I think the efforts here to engage the 
public and to pull the students into technical fields are so 
critically important to the future of this country, and to be 
able to do that through the auspices of NASA I think is an 
incredible thing. So I thank you for the leadership, and I wish 
us all well with the final outcomes here as we go forward and 
learn from our mistakes and build for a stronger future.
    Mr. Bridenstine. Thank you.
    Mr. Tonko. With that, Mr. Chair, I yield back, and thanks 
for allowing me to be next-to-last.
    Mr. Lucas. Absolutely, my dear friend. Thank you for 
yielding back.
    I recognize myself for five minutes to just simply offer an 
observation and a question. It's good, Administrator 
Bridenstine, my old fellow Oklahoma colleague, to have you 
here. You entered into your role in a challenging time. Perhaps 
not since Administrator Webb have there been such opportunities 
and such challenges for the agency.
    I'm about 18 months younger than NASA, so my entire life 
NASA has been the--as my mother used to say, a child of the 
1930s--the Buck Rogers institution. It's been the whizbang of 
the federal government and the world. But as we enter into 
these ever-increasingly large and expensive science projects, 
the expectations and the anticipation of the constituents grow.
    Your legacy, I suspect, will be determined by how well you, 
working with all of the wonderful people at NASA and other 
contractors, deliver on finishing James Webb.
    Mr. Bridenstine. That's right.
    Mr. Lucas. I have expectations that you can do that. My 
only question quite simply to you is, as we've discussed now at 
extent, not through this hearing but through hearings and 
hearings and hearings on James Webb, this has to be right. We 
can't go put a pair of glasses on it the way we did Hubble. We 
can't go make adjustments. It has to fly correctly. Your word 
is--and I'm asking--we won't fly until we're ready. We won't 
fly until we're perfect, and when we're perfect, we'll live up 
to the expectations that we've established in this Committee 
and in this country for this project, correct?
    Mr. Bridenstine. That's correct.
    Mr. Lucas. That's all I have to ask, and that's the 
reassurance I need.
    With that, I thank the witnesses for their testimony and 
the members for their questions. The Committee stands in recess 
until tomorrow morning, at which time we'll reconvene for the 
continuation of this hearing.
    [Whereupon, at 12:35 p.m., the Committee recessed, to 
reconvene at 9:30 a.m., Thursday, July 26, 2018.]
    The Committee met, pursuant to call, at 9:39 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
    Chairman Smith. The Committee on Space, Science, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Good morning, and welcome to the second day of the hearing 
entitled ``James Webb Space Telescope: Program Breach and its 
Implications.'' I'll recognize myself for five minutes for an 
opening statement.
    Yesterday, the Committee heard discussions about the James 
Webb Space Telescope program breaches. NASA Administrator Jim 
Bridenstine and Independent Review Board Chairman Tom Young 
provided insights into the Northrop Grumman management 
problems. As a reminder of JWST's cost overruns and schedule 
delays, take a look at the chart on display, and this is the 
chart that I also showed yesterday.
    [Slide.]
    Chairman Smith. The chart chronicles JWST's substantial 
cost growth and launch schedule delays starting in the lower-
left corner with the 1996 initial projection of $500 million 
and a 2007 launch all the way to the--excuse me--upper-right 
corner with the IRB's 2018 projection of $9.6 billion and a 
2021 launch. That is 19 times the original cost and a delay of 
14 years. Who is going to be held accountable?
    Beginning with TRW's 1990s developmental work on JWST 
through Northrop Grumman's acquisition of TRW and continuance 
of the project's development, it is clear that Northrop Grumman 
did not adhere to the best business practices. Digging into the 
details, the IRB report describes mistakes that have greatly 
impacted the JWST development schedule and its associated cost 
increases.
    The IRB categorized those issues as follows: first-of-a-
kind developments such as the complex sunshield for the 
telescope; avoidable human errors in the workplace, such as the 
use of a wrong solvent and applying excess voltage; lack of 
individual and organizational discipline in developing safety 
checks to catch human errors and minimize their impact; 
embedded problems with contractor quality control processes, 
such as not detecting technician and material errors until 
assembly and testing when those errors added to costs; lack of 
a contractor managed engineering audit process to catch 
embedded problems before those problems continued unchecked 
until testing and assembly.
    The IRB's description of workplace errors and lack of good 
management has been found at other space missions associated 
with Northrop Grumman. The U.S. aerospace industry has the 
highest skilled workforce in the world. Their scientists, 
engineers, and technicians have built incredibly challenging 
and complex aerospace systems. So the workplace errors and lack 
of discipline, auditing, and quality control described by the 
IRB could lead us to believe that the real issue may be with 
Northrop Grumman.
    Not that Northrop Grumman hasn't tried to convince the 
public that all is going well. As this hearing date approached, 
Northrop Grumman's JWST advertising campaign loudly proclaimed, 
quote ``Making History Requires Mission Success'' and ``The 
Value of Performance.'' But the full-page ad in The Washington 
Post, which may have cost as much as $200,000, didn't mention 
the lack of performance due to billions of dollars in cost 
overruns, years of launch delays, frustration of NASA managers, 
and avoidable workplace errors.
    As I said yesterday, when government contractors make 
mistakes, typically no one is held accountable. The mistakes 
``just happened'' or ``were unavoidable'' or ``won't happen 
again.'' But in every case, the American people pick up the 
bill. We often forget there's no such thing as federal dollars. 
It is the American taxpayers' hard-earned money.
    Going forward, Congress needs to have the necessary 
confidence in NASA's contractors to put us on the right path at 
a reasonable cost. Anything short of that will undermine 
Congressional confidence in contractors' ability to deliver on 
their promises.
    Another adverse effect of cost overruns, of course, is that 
they can jeopardize other space programs. If space exploration 
is going to continue to earn the public's support, then 
contractors will have to deliver on time and on budget. If they 
cannot, they should be penalized.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    Chairman Smith. That concludes my opening statement, and 
the gentlewoman from Texas, the Ranking Member Ms. Johnson, is 
recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman. Let me 
first apologize for being a little late. I had tox--was delayed 
from a previously scheduled meeting.
    Good morning to everyone and welcome, Mr. Bush, and welcome 
back, Mr. Young.
    The recently announced cost growth and schedule delay for 
the James Webb Space Telescope is not good news, and Northrop 
Grumman shares responsibility with NASA for the situation which 
we are facing. The human errors at Northrop Grumman that 
contributed to the cost and schedule growth on the project are 
indeed troubling.
    But let me be clear. I am not here to berate Northrop 
Grumman and its associated subcontractors but rather to see 
what needs to be done to keep this from happening again. In 
addition, the Committee, in its oversight capacity, needs to 
take a hard look at whether appropriate mechanisms are in place 
to ensure accountability at both Northrop Grumman and NASA for 
the cost growth and delays to the James Webb Space Telescope 
project.
    So I hope this morning's discussion will shed light on 
several issues, including the biggest risks to meeting the 
March 30, 2021, launch date and how much confidence Congress 
should have in Northrop Grumman's ability to meet that date. I 
also want to know what changes are being made to address the 
Independent Review Board's findings and recommendations on 
management communication on the James Webb Space Telescope 
project.
    Before I close, Mr. Chairman, I want to thank the hundreds 
of employees at Northrop Grumman and NASA who are working 
tirelessly toward a successful completion and the commissioning 
of the James Webb Space Telescope. Many of them have worked 
long shifts, weekends, and have given up time with their 
families to meet the demands of this extraordinary project. We 
appreciate their important contribution. This project and the 
scientific discoveries it will enable would not be possible 
without them.
    And before I yield back, I have a letter that I'd like to 
offer to the record, which is a support letter from Mr. Hoya 
and Anthony Brown.
    Chairman Smith. Okay. Without objection, the letter will be 
made a part of the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Ms. Johnson. Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Smith. Thank you, Ms. Johnson.
    And let me ask unanimous consent that the opening 
statements of the Chairman of the Space Subcommittee, Mr. 
Babin, and the Ranking Member of the Space Subcommittee, Mr. 
Bera, be made a part of the record, too.
    [The prepared statement of Mr. Babin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    [The prepared statement of Mr. Bera follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

   
    
    Chairman Smith. And also, at the outset, let me note--and 
for our witnesses to be aware of as well--that we expect votes 
in about 15 minutes at 10 o'clock. We will come back 
immediately after those votes. I think those votes will take 
around 20 minutes, and then when we come back, we should have 
close to an hour before the second series of votes, after which 
it will be impossible to get members to return. So I hope 
members will remember they were supposed to be here anyway and 
come back after that first set of votes.
    Our first witness today is Mr. Wesley Bush, Chief Executive 
Officer of Northrop Grumman. Mr. Bush began his career with 
Northrop Grumman as President of the company's Space Technology 
Sector. Prior to Northrop Grumman, he served as President and 
CEO of TRW's United Kingdom-based Global Aeronautical Systems.
    Mr. Bush earned both a bachelor's degree and a master's 
degree in electrical engineering from MIT. He also completed 
the University of California Los Angeles Executive Management 
Program.
    And Mr. Tom Young is welcomed back. He testified yesterday. 
He is Chairman of the Independent Review Board. Mr. Young is 
the former Director of NASA's Goddard Space Flight Center, as 
well as the former President and Chief Operating Officer of 
Martin Marietta Corporation. He earned both a bachelor's degree 
in aeronautical engineering and a bachelor's degree in 
mechanical engineering from the University of Virginia and a 
master's in management degree from MIT.
    Mr. Young testified yesterday, so he will not be making 
that statement a second time, but of course he will be 
available for questions.
    So we'll begin and I look forward, Mr. Bush, to hearing 
from you.

                   TESTIMONY OF WESLEY BUSH,

                    CHIEF EXECUTIVE OFFICER,

                  NORTHROP GRUMMAN CORPORATION

    Mr. Bush. Thank you, Mr. Chairman. Well, Chairman Smith, 
Ranking Member Johnson, and Members of the Committee, thank you 
for the opportunity to appear before you today to discuss the 
status of NASA's James Webb Space Telescope. This telescope is 
the largest and most complex astronomical science telescope 
ever built. Like the iconic Hubble Telescope, Webb will 
reaffirm and solidify U.S. leadership in space, which is 
critically important as other nations are testing our will to 
lead in space. Webb also will inspire the next generation of 
scientists, engineers, astronomers, and innovators and 
transform our understanding of the physics of the universe. But 
Webb doesn't just stretch Hubble's limits, it is a true leap 
ahead in technology and capability.
    From a technical standpoint, Webb is an incredible 
engineering feat with a 21-foot primary mirror and a sunshield 
roughly the size of a tennis court, we had to design and build 
Webb to fold up together to get it into the launch fairing.
    After launch, Webb will slowly unpack itself in space as it 
progresses towards its operating location one million miles 
from Earth, where there will be a temperature swing of nearly 
600 degrees between the optical mirror and the other side of 
the sunshield. Building a telescope that can operate in such a 
harsh environment beyond the reach of satellite servicing 
requires extensive testing on the ground to ensure that it will 
operate as planned in space.
    All of Webb's major hardware components are now located at 
our Space Park facility in Redondo Beach, California, where 
they will undergo final integration and testing. If you could 
put the first slide up.
    [Slide.]
    Mr. Bush. On the screen is a photo of the elements that 
make up Webb, altogether in the High Bay at Space Park, and it 
is absolutely a great site to see. And you can get a sense of 
the scale with the humans that are in the photo.
    We're now assembling these major parts together and testing 
it to ensure mission success. The next picture if we could move 
to the next slide----
    [Slide.]
    Mr. Bush. --shows the progress we have made in building up 
the major subsystems of the telescope and the remaining steps 
still before us.
    The optical telescope element and the integrated science 
instrument module, which is called OTIS, is complete and fully 
tested. We are now focused on testing the spacecraft element, 
which includes the sunshield. Once we have successfully 
completed the spacecraft testing, both parts of the telescope 
will be put together, tested, and shipped for launch.
    Northrop Grumman takes very seriously the trust placed in 
us to build this incredible telescope and our responsibility to 
ensure mission success. While we're proud of the technological 
accomplishments that we've achieved with our partners, we 
recognize that we have contributed to the telescope's delays. 
We worked closely with the Independent Review Board, and we 
appreciate the hard work by Tom Young and the IRB members in 
developing their recommendations, and we are currently 
implementing the IRB's recommendations and we fully support 
NASA's revised plans for the program. Mission success is our 
top priority.
    My written testimony goes into much greater detail about 
the program and how we are implementing the IRB's 
recommendations, but let me focus on two key points that I want 
to make very clear. First, the complexity of this first-ever 
program inevitably creates opportunities for human error in 
design, manufacturing, integration, and testing. And we have 
experienced some errors, and unfortunately, several of them 
have occurred at a phase in the program where they result in 
significant schedule impacts. We've also learned that some 
things that we thought we could do more quickly are simply 
going to take more time to perform in a way that reduces the 
likelihood of other errors and gives us greater confidence that 
the system will operate as planned.
    I know these delays create frustration and also impact 
funding available to other programs given the budget 
constraints, so I want to address your questions today as best 
I can to ensure that there is complete transparency on the 
facts.
    Second, I want you to know that we are confident that Webb 
will work and will perform its mission in a way that will make 
all of us in this room proud that we were part of making it a 
reality. I'm pleased to see that the IRB confirmed their 
confidence that we can be successful as well.
    Mr. Chairman, Ranking Member Johnson, this Committee's 
decades-long bipartisan support has been essential to keeping 
Webb moving forward, and we are determined to make it a 
success. So thanks again for the opportunity to testify here 
today.
    [The prepared statement of Mr. Bush follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
 
    
    Chairman Smith. Thank you, Mr. Bush. And I'll address my 
first questions to you.
    Yesterday, Mr. Young suggested--no doubt you're aware--of 
the idea that all holding fees or all award fees be put in a 
holding account until the mission is a flight success. Would 
you agree to do that?
    Mr. Bush. So as a mechanism to ensure that we are all 
aligned on mission success, Northrop Grumman has actually 
discussed this with NASA, and we are willing to place all of 
the fee that we've already earned and the fee that we may earn 
in the future at risk based on successful activation and 
demonstration of the telescope on orbit. So we're very much 
aligned on that recommendation.
    Chairman Smith. I appreciate that positive response. I 
think you anticipated the question. Next question is this, this 
goes a step further. It seems to me that, given Mr. Young's 
description of JWST yesterday as a poorly managed program, that 
you ought to also put the $800 million and above cap expenses 
that were not anticipated and pay that yourself.
    Mr. Bush. Well, let me reaffirm that we are very committed 
to mission success, and as I said before, we are very proud of 
the progress that we've been making, but we do recognize that 
there has been cost growth. James Webb is structured as a cost-
type contract, which is the typical contracting approach for 
such a large-scale development project that's never been done 
before. And a cost-type contract recognizes the inherent risk 
in the development and it provides the government the ability 
to direct our actions on an ongoing basis. So this type of 
contract gives the government the tools that it needs to ensure 
accountability through the direct control of our fee.
    So to your question about the financial position on the 
program, to be clear, our financial position on this program 
has been degraded in a number of ways when we experienced cost 
growth and delays. First, our award fees have been very 
negatively impacted----
    Chairman Smith. Mr. Bush, let me interrupt you. My question 
was would you agree to pay the 800 above cap cost?
    Mr. Bush. Our view on that is that would create more of a 
fixed-price relationship on this program, which would 
significantly impede and impair the relationship between NASA 
and Northrop Grumman. And as we are focused on mission success, 
we think that would be the wrong approach.
    Chairman Smith. Okay. I think that that would be justified, 
given the poor record and given the poor management that Mr. 
Young referred to yesterday. And I only wish that Northrop 
Grumman was willing to take responsibility and show a little 
bit more good faith both for the taxpayer and for the cost 
overruns, but it sounds like you've made up your mind. I just 
happen to disagree with you.
    Mr. Young, let me address my next question to you. 
Yesterday, you mentioned the cost-plus programs almost 
inevitably ended up being over cost, sometimes considerably 
over cost, and that was kind of baked into the system because 
when you're awarded a cost-plus contract, there's not much 
incentive to keep the costs down. I wondered if you had any 
ideas for how the bid criteria should be changed so that in the 
future we can avoid the massive amounts of cost overrun that 
we've seen with JWST, as well as with other programs?
    Mr. Young. Yes, I think the point I was making yesterday 
was for cost-plus programs, competitive programs, contractors 
are encouraged to bid the lowest credible cost. And why do they 
do that? They do that because the sponsoring organization for 
the contract, basically that's what wins. And I think that's 
unfortunate, but it's a fact that exists. And my comment 
yesterday and my comment today really is that what's necessary 
is that being the lowest credible bidder should not be a 
criteria for winning the contract. And if I go a step further, 
I think it also should not be the input to NASA or the 
government or this Committee establishing what's the most 
probable cost for a program. And I think that should be done 
independent of the bid price.
    So I fundamentally think that using JWST or programs like 
it in the future as an example, that NASA should develop a most 
probable cost for the program, not use a bid price from a cost-
plus program, and that that should be the basis for budget into 
a program as being the most probable cost.
    Chairman Smith. And so it's not necessarily the low bid. It 
would be the----
    Mr. Young. In fact, I would say it certainly won't be the 
lowest bid.
    Chairman Smith. Okay.
    Mr. Young. Yes.
    Chairman Smith. Do you think that past performance should 
be taken into consideration?
    Mr. Young. I do. I think past performance--past performance 
is a strong motivator for corporations, and if I go back to my 
personal life, you know, at Martin Marietta, past performance 
was--that was a parameter that we treated as very, very 
important.
    Chairman Smith. Okay.
    Mr. Young. And even though we may be involved with a cost-
plus contract, that did not negate the fact----
    Chairman Smith. Yes.
    Mr. Young. --that both----
    Chairman Smith. Yes.
    Mr. Young. --ourselves and our board----
    Chairman Smith. Yes.
    Mr. Young. --considered past performance to be part of it.
    Chairman Smith. Yes, I think past performance should be 
considered but I also--sometimes you get the feeling when you 
hear about, yes, something is complex, yes, it hasn't been done 
before, you almost get the feeling in regard to cost that the 
ends justifies the means. And I think that is a dangerous 
approach to take. I don't think the ends should always be used 
to justify the means, in this case the cost, but I think your 
suggestions will help us get to the goal, and I like the fact 
that you want us to consider past performance, so I 
appreciate----
    Mr. Young. If I could add just one item, and I know time is 
critical. If I could add just one item, I also think that for 
flagship missions that the kinds of things NASA does are not 
amenable to fixed price. In other words, you--I think that we 
collectively don't want NASA pursuing the easy stuff, and we 
want NASA pursuing the challenging, the difficult stuff.
    Chairman Smith. I think there's some that would be fixed 
and some not depending on the nature----
    Mr. Young. I agree with that, but flagship missions by 
their nature probably would not be in the fixed category.
    Chairman Smith. Thank you, Mr. Young.
    And the gentlewoman from Texas, Ms. Johnson, is recognized 
for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Mr. Young, due to time constraints on yesterday, there are 
a couple of questions I'd like to raise that I wanted to do 
yesterday. And you have, I think, partially addressed some of 
them this morning.
    But the review board report found that the current NASA 
reporting structure for the project is complex, confusing, and 
ineffective. It seems to me that getting that structure right 
would be critical if the James Webb project is to succeed. So 
who should be accountable for the project specifically and who 
for the overall James Webb project--program?
    And then secondly, there was some discussion yesterday 
about having the review board reconvene if NASA is following 
through to check to see whether they're following through with 
the recommendations. I'd like your opinion on whether or not 
you think this board is willing to reconvene.
    Mr. Young. Very good questions. On the first one, the 
management structure, it's our belief that a well-run program, 
clearly one of the characteristics is to have established 
accountability, responsibility, and authority individually for 
the key members of the organization and to fully use the 
resources. And you really describe what we found for JWST.
    Our belief is that the accountability and responsibility 
and authority needs to be residing, one, at the Goddard Center 
Director level. The Goddard Center Director should be totally 
responsible for the program, not just providing resources to 
implement the program. And the full capability of the Center 
Director and his or her staff would be applied to the project, 
number one. Number two, that there be a project manager, which 
there is today, who's totally responsible for the program 
reporting to the Goddard Center Director. And three, that at 
the program level, which is a broader perspective of the 
project activity, that that be the responsibility totally of 
the Associate Administrator for Space Science and specifically 
that the Goddard Center Director would report to that 
individual for the execution of the program. That in our view 
is a crisp statement of individual accountability, 
responsibility, and most importantly, authority.
    To your second item very quickly, it's NASA's decision 
obviously whether or not they want to have an examination of 
the implementation of our recommendations. Our belief is that 
it should be done. The IRB is willing to do that, and we 
personally think that it needs to be done early enough in the 
process that it's before--that it can have an impact and late 
enough where things have been done. So our recommendation would 
be like the latter part of September would be a terrific time 
to do that review if NASA believes it would be appropriate.
    Ms. Johnson. Thank you very much.
    Mr. Bush, what do you consider to be the most important 
corrective actions that you put in place to avoid some of the 
past shortcomings and if you're willing to work with the 
findings and recommendations of the review board?
    Mr. Bush. Thank you for that question. We do fully support 
the findings of the review board, and I, too, agree it would be 
a very good idea to have a follow-up in the process with the 
review board. I think the most important things that the review 
board pointed out in terms of ensuring that the steps that are 
being taken as we go forward are primarily focused on mission 
success are the areas where we are ensuring that when we align 
processes, when we align training, when we engage with our team 
on the floor who have their hands building this thing every 
day, that the discipline is there, that the understanding is 
they not only have the ability to put their hand up and say 
stop everything but they have the responsibility to do that if 
they even suspect something might be wrong.
    We've also worked hard to enhance the safety net on the 
program, and let me explain that. And I think the IRB said it 
really well, that human errors are inevitable, but we have to 
do everything that we can to put a safety net behind them to 
make sure that we catch them as early as possible. So in our 
company, and I think in most in our industry, there are two 
organizations that work alongside the folks in the program who 
are, again, touching the program every day, the mission 
assurance organization, as well as the engineering 
organization. And we have given them the ability and the 
responsibility to be digging in deeply onto the program to go 
back, take a hard look at everything that we have done.
    Mr. Young and his team used the term embedded errors. We 
want to make sure that we do not have those any place in the 
program. NASA is actually leading a process to go back and help 
do that scrub. Our team is highly engaged on that. So we've 
worked hard to enhance the safety net behind the team as well, 
so it is both reinforcing the team, giving them some extra 
tools, but also enhancing the safety net so that we can make 
sure that we're doing the right thing for mission success.
    Ms. Johnson. Thank you very much.
    Chairman Smith. Thank you, Ms. Johnson.
    After the gentleman from Oklahoma is recognized for his 
questions, we're going to recess until after these votes and 
then resume the hearing immediately after.
    The gentleman from Oklahoma, Mr. Lucas.
    Are you going to yield to the gentleman from Texas?
    Okay. Thank you. The gentleman from Texas, Mr. Babin, the 
Chairman of the Space Subcommittee, is recognized.
    Mr. Babin. Thank you very much. I appreciate that, Mr. 
Chairman and Vice Chairman. The first question is for Mr. 
Young. Yesterday, Administrator Bridenstine called a schedule 
of testing for JWST ``optimistic,'' and your report says the 
same thing. From your experience, what are your observations of 
overly optimistic expectations being an issue with other major 
NASA programs?
    Mr. Young. Well, I--there's probably a natural tendency for 
projects to be optimistic, so--and, fundamentally, people who 
aspire to be involved with projects are naturally I think 
optimistic. On the other hand, there really has to be a process 
that both encourages optimism and balances it with realism. And 
so I guess we would say that that process wasn't as strong as 
it should have been in this particular situation, and optimism 
in doing a lot of the INT planning dominated, which I think was 
a fundamental mistake. And that clearly is a Northrop Grumman 
responsibility, but NASA also plays a role in our view in being 
a damper, if I could say that way, on the optimism that is 
incorporated.
    Mr. Babin. All right. Thank you very much. Well, you don't 
want overly pessimistic people working on these programs----
    Mr. Young. You don't.
    Mr. Babin. --either----
    Mr. Young. That's right.
    Mr. Babin. --that's for sure.
    And, Mr. Bush, the Trump Administration has emphasized 
space as part of the national security strategy. Do you think 
the JWST development issues signal an erosion in the quality of 
the American space industrial base to our near-peer 
adversaries, thus negatively affecting our national security 
strategy?
    Mr. Bush. I think what the Administration is doing with its 
emphasis on space is incredibly important for our country. As I 
said in my opening remarks, I am quite concerned that our will 
to lead is being tested every day, and because of that, I think 
it is especially important that we take on programs like Webb 
to demonstrate to the world that we can lead and that we can 
continue to set the pace on technology.
    Your question related directly to concerns about the 
erosion in the industrial base, and I did have a number of 
concerns as we went through a very difficult period after the 
sequester where the industrial base, along with our customer 
communities, were very negatively impacted. But as I take a 
look and in particular at Webb, I do not see those particular 
issues evident. I think they are more along the lines of the 
issues identified by the Independent Review Board.
    But as I look ahead and I think about our industry and I 
think about our capacity to really lead, there are concerns on 
the horizon that we need to be very focused on, concerns 
associated with workforce, STEM education, and our willingness 
to take on these very risky projects so that we can continue to 
lead.
    Mr. Babin. Okay. Thank you. Very well.
    And, Mr. Young, during yesterday's testimony, you also 
mention that NASA and Northrop Grumman's plan for implementing 
the IRB's recommendations will be set in the next couple of 
months and that the implementation plan must be reviewed before 
it becomes set. Do you believe that an Independent Review Board 
should conduct this implementation plan review, and if not, 
should the SRB conduct this review?
    Mr. Young. I actually think it should be the IRB to do it. 
The review board was the one who obviously developed--
established the recommendations. One of the things that's 
always difficult is putting on paper exactly what it is that, 
you know, review board thinks is necessary to be implemented, 
so we did the best job we thought we could in that regard, but 
there's also subject to interpretation. So I think it's 
important to the people who sponsored the recommendations to be 
those who examined the implementation of the recommendations to 
assure that they're consistent with what was intended when they 
were developed.
    Mr. Babin. Yes, sir. And then one last question for Mr. 
Bush. Congress fully understands that JWST is a very complex 
mission both in terms of spacecraft design and its intended 
operating environment. Putting aside the sunshield situation, 
Mr. Bush, what other development areas have contributed to this 
schedule delay?
    Mr. Bush. So over the years there have been a variety of 
issues. They range back from the decisions early in the program 
to scale up the size of the optic and the approach to 
conducting the mission. I think those were very appropriate. It 
was a learning process in terms of what would really be needed 
to implement the physics objectives of the program. But as we 
have progressed through the program, we've had enormous 
success. There were basically 10 technological inventions that 
we had to get behind us to even enable us to get to the point 
that we are at today where we could be integrating and testing 
the full capability. We've had tremendous success in those 
technological developments.
    But as we've gotten into the integration and test process, 
as the IRB I think very accurately pointed out, the issues have 
been finding the small things that aren't tested until later in 
the process, that when we find them, they have these big 
impacts that we have to go through to undo things, put it back 
together again, and then retest it because we're determined 
that we're going to test this thing comprehensively before we 
launch it.
    Mr. Babin. Yes, sir. Thank you very much. And I yield back, 
Mr. Chairman.
    Chairman Smith. Thank you, Mr. Babin. And I understand the 
gentlewoman from Virginia, Mrs. Comstock, has a unanimous 
consent request? Okay.
    Mrs. Comstock. To submit a statement for the record.
    Chairman Smith. Okay. Without objection, the statement will 
be submitted for the record.
    [The prepared statement of Mrs. Comstock follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Smith. We'll recess until after these votes and 
then resume immediately.
    [Recess.]
    Chairman Smith. The Science, Space, and Technology 
Committee will resume our hearing, and the gentleman from 
California, Mr. Bera, the Ranking Member of the Space 
Subcommittee, is recognized for his questions.
    Mr. Bera. Thank you, Mr. Chairman.
    Thank you, Mr. Bush, for being here and, Mr. Young, for 
your patience and coming back for a second day. I talked about 
a little bit yesterday with projects of the size and scope and 
difficulty of James Webb, one of the challenges is 
appropriately budgeting, thinking about things, and figuring 
out the time to do something that you've never done before, 
understanding the science, et cetera, and there's a lot that we 
can learn from the contracting, the construction, and design 
and the overruns on James Webb.
    I tend to be a simple person. As I talked about yesterday, 
putting it in simple terms, I think about it as the contract I 
made with our daughter when she decided she wanted to go to 
college. In this case, you know, a lot of us have done home 
remodels and you kind of lay out what you want to do and so 
forth and think about what--as you bid that out to various 
contractors and you make a decision. And most of us run into 
cost overruns when we do that.
    Part of it is self-inflicted. As you're going to the 
project you realize, hey, you know what, we're doing this, 
let's remodel the kitchen as well. Those are conscious 
decisions to spend more money.
    Again, as we look at the history of James Webb, as we 
started designing this, thinking about it. Science advanced. 
Consciously, we said, well, hey, if we're going to already send 
a telescope out there, science is advanced now; let's add some 
things on. Those are predictable cost overruns. And we should 
have conscious debate of whether that's what we should do, et 
cetera.
    And my sense is we've done that multiple times over the 
length of the project. I'm not suggesting that we don't do that 
because if--it makes sense for us to add additional items and 
delay the project in order to advance science and get more 
information in a cost-effective way, that may make sense. But 
then there's also, I think, Mr. Young, you brought up some of 
the potentially avoidable cost overruns the human error 
component of this. And, you know, I know--I asked you, Mr. 
Young, some of the things that we've learned from this 
experience that we could-- as we go forth and do additional 
sciences, Mr. Bush, from the contractors' side of things, I'd 
like to hear your side as you look to the IRB report what are 
the things in our oversight role as Members of Congress as we 
are going to have to make trade-offs and decisions from the 
contractors' side of things. What are things that Northrop 
Grumman has learned that could inform Congress?
    Mr. Bush. So I think a lot of this goes to this notion of 
how do you retire risk when you're managing complexity? And we 
all learn each time we take on something at the new level of 
complexity how you actually approach those types of steps in a 
process. So some of the risk retirement can occur actually 
before you start a program, and in fact there are some 
procurement approaches that a variety of places in NASA as well 
as DOD use where they attempt to get as much technological--
excuse me--risk retirement in place before you start the 
program. And if you're able to do that, then you are able to 
better define a path forward. The challenge with doing that is 
that sometimes actually takes a little bit longer at least at 
the beginning to do those risk retirements.
    So on a program like Webb, as we have gotten into it, I 
think one of the big lessons learned was clearly that risk 
retirement was not only associated with the technologies 
themselves. I spoke earlier about this remarkable set of 
inventions that have already been successfully completed on 
Webb, which I think we should all be proud of. This--these in 
and of themselves, those inventions represent advancements not 
only for the space community but they have spinout effects as 
well. And NASA's been, I think, doing an incredible job of 
spinning things out.
    But the issues were not only in the technology development 
for risk retirement. They were also in a lot of the processes, 
the actual processes for implementing the pieces as we went 
along. A good example, we've never done anything quite as 
complex in a deployment as folding up the sunshield, and what 
we've learned is it takes longer to fold it up and unfold it 
each time we go to test it than we had planned.
    Mr. Bera. Since I'm going to run out of time, is there a 
way----
    Mr. Bush. Right.
    Mr. Bera. We've talked a little bit about risk-sharing 
contracting as well. Certainly in health care we do some of 
that where if you're under budget, on time, or ahead of time, 
there's a benefit to the contractor. If you're over budget more 
delay, there's some risk that's borne. Is that a type of 
contract that actually could work in this particular space?
    Mr. Bush. Yes, those types of contracts need to be combined 
with a risk-management, risk-reduction process so that that--
those risks can be understood. But yes, the answer is 
absolutely yes.
    Mr. Bera. Great. And, Mr. Chairman, before I yield back, 
I'd ask unanimous consent. I've got a letter from 
Representative Ted Lieu, whose district represents where some 
of Webb is being constructed and put together in support of the 
James Webb----
    Chairman Smith. Okay. Without objection, the letter will be 
made a part of the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    
    Chairman Smith. And the gentlewoman from Virginia, Mrs. 
Comstock, is recognized for her questions.
    Mrs. Comstock. Okay. Sorry. Thank you. Thanks. I appreciate 
the opportunity to talk with you today, and thank you. I think 
yesterday's testimony was very helpful hearing from Mr. 
Bridenstine and also hearing about how all of these evaluations 
and the critiques really have come together, and I certainly 
got that impression from him. I wasn't able to hear all of Mr. 
Young's testimony yesterday but certainly did get the 
understanding.
    And I think, Mr. Young, you said this yesterday, ``Space is 
a one-strike-and-you're-out business, and we can't have 
problems that are catastrophic.'' And I think from all the 
testimony we've had yesterday and today, that seems to be a 
very large part of the commitment that, given the Hubble 
Telescope is only 350 miles away, and it's been serviced five 
times, We were able to get there and do it, but when you're a 
million miles from Earth, that is not a potential solution so 
we have to work on all of the risks and changes here.
    And with all this, I want to make sure that as we are doing 
all this evaluation, looking at taking the risk and everything, 
that people are going to feel comfortable coming forward. I 
want to make sure you--and it seemed like Mr. Bridenstine did 
feel comfortable with that yesterday--I want to make sure that 
all the teams that are working on this and the additional 
supervision now, that when there is a mistake, when there is a 
problem, even if that problem is going to lead to more costs, 
that we are going to catch that problem before. Do you think 
that the climate and the systems that are put in place now will 
still allow for that?
    Mr. Bush. Yes, let me let me remark on that if I might, 
Congresswoman Comstock. One of the most important things in our 
industry, particularly in the space industry, is the ability of 
employees to feel very, very comfortable to put their hand up 
when they--as I mentioned earlier, either when they know 
something's wrong or even if they suspect something might be 
wrong. So this goes to this culture of understanding what 
really mission success means on a day-to-day basis. So it's 
something that we work very, very hard on.
    It gets reinforced constantly at all levels of engagement 
to the point that we take the extra step of rewarding and 
recognizing employees who put their hand up and say, wait a 
minute, let's stop, let's take a hard look even if it means an 
impact on schedule because much better to do it while we're 
building it, find it then, and be confident that it's going to 
work.
    So I have a lot of confidence. I've seen our team do this 
now a number of times. These issues that we're talking about 
today are issues that our team found. And they did that. They 
put their hand up. And they are eager to go through this 
process that's underway now to see if there's anything else 
that we need to figure out, that we need to find. This is a 
team of people who are absolutely dedicated to mission success. 
They work on this thing all the time. And I've talked to many 
of them. They dream about it at night. They are inspirations in 
terms of how committed they are. And they are, I am confident, 
going to continue to put their hand up if they think 
something's wrong.
    Mrs. Comstock. And I'd like to thank both of you for your 
work on this front. I'd like to acknowledge--obviously, 
Northrop Grumman is in my district, and Mr. Bush, in all your 
work, I want to thank you. I really appreciate that your will 
to lead is being tested every day. Failure is not an option 
here. We need to have mission success. I appreciate all that 
you're doing in the STEM pipeline. I see you throughout my 
district all the time and all the work you're doing there, the 
importance of the workforce development that you had 
highlighted, and I know the first time we had met was when we 
were battling together--I was back in the state house--when 
Northrop Grumman was coming here and the Governor was working 
to get you here but also we were fighting the sequester 
together with Congressman Wolf, and I appreciate your work 
there and the importance of this.
    And, Mr. Young, thank you also for your service on this 
front, and I think going forward it's important that we 
understand--that we all appreciate how challenging these 
missions are, and growing up we all saw all the movies and the 
challenges and the failures that have come with space, but also 
the great successes. We learn from the mistakes certainly as--
the famous Thomas Edison quote, we want to make sure that any 
of the problems that we've had are all geared towards a 
successful mission, so thank you.
    Chairman Smith. Thank you, Mrs. Comstock.
    And the gentlewoman from Oregon, Ms. Bonamici, is 
recognized.
    Ms. Bonamici. Thank you very much, Chairman Smith and 
Ranking Member Johnson. And to our witnesses, I regret that I 
was in another committee where I had a commitment yesterday and 
I missed Administrator Bridenstine's testimony, but in the 
event he's watching, I send greetings. He was on this Committee 
not that long ago, and I thank him for his work at NASA and for 
his service to the country.
    You know, over the years, our country's investments in 
space exploration have led to so many exciting discoveries 
about our universe. I've been on this Committee my entire time 
in Congress, and we've often discussed planetary science and 
human space exploration. And an emerging theme is the role that 
NASA plays in sparking the imaginations of the next generation 
of students to pursue studies in science and astronomy. And 
certainly, members of this Committee understand the importance 
of making progress on restoring our sense of pride as a country 
and international leadership in space discovery. We also know 
that the James Webb Space Telescope is a high priority for NASA 
and that thinking big and taking risks is part of what space 
exploration is about.
    I share the concerns, however, about the latest setbacks, 
and I applaud NASA for establishing the Independent Review 
Board. I hope this hearing, as well as the hearing yesterday, 
can help identify a path forward that minimizes risks and 
additional delays.
    Mr. Bush, I want to follow up on Ranking Member Eddie 
Bernice Johnson's question. We understand the scope and 
complexity of the project, but some of this, as your testimony 
admits, was human error, so are you convinced that Northrop 
Grumman has put in place adequate practices to minimize the 
risk of additional errors? And, as you said in your testimony, 
most of the complex issues are now behind us, so how can you be 
confident that from this point to launch you won't encounter 
additional complex issues?
    Mr. Bush. So to answers to your two questions there, first, 
with respect to our degree of confidence in finding the issues 
today, there was I think several important perspectives on 
that. One is--and Mr. Young and the IRB pointed this out. We're 
never going to be able to get human errors to zero. You know, 
the word human in that equation tells you that. So what we have 
to do is do our very best with the humans involved to make sure 
that they've got the right processes, that they're with 
discipline following those processes, and that they have the 
right qualifications to do the job. So that's a big part of it.
    The second part of it, though, is the safety net and making 
sure that we have a robust approach to backing up the humans 
that are doing the job so that, if they do make an error, there 
is someone there or some other process involved that with high 
likelihood will identify before it propagates into the system.
    Ms. Bonamici. And are you convinced that you--that the 
company has done that----
    Mr. Bush. I feel very, very good about where we are in that 
regard, but we're going--we are continuing to self-test that.
    So your second question I think related to what the 
Independent Review Board talked about as embedded problems, 
things that might still be there. So we are in process. NASA is 
leading this. We're going through all the records. We're going 
through taking a second pass to see if there is anything else 
that we can possibly find or conceive of that might be an issue 
that we need to get addressed quickly. I think we're going to 
be through this in just a number of weeks, and if it is the 
case that the Independent Review Board takes another look, I 
think that would be a great thing for them to look at as well.
    Ms. Bonamici. Thank you. And I'm going to ask Mr. Young a 
question, but I did notice that you said most of the complex 
issues are now behind us, not all.
    Mr. Bush. Well, we have to test the satellite, right? We 
test it for a reason.
    Ms. Bonamici. And, Mr. Young, thank you for your testimony. 
How can Congress--and following up on Mr. Bera's question--how 
can Congress assess NASA's progress in implementing the 
findings and the multiple recommendations from the Independent 
Review Board, and should the board be reconvened to determine 
if NASA is on track to meet those metrics, and if so, when?
    Mr. Young. My personal belief is the board should be 
reconvened and--because I think it's the group who's, you know, 
most formulated to assess the implementation, and it needs to 
be done after NASA and Northrop Grumman have had adequate time 
to understand and do--implement or begin the implementation of 
the recommendations.
    Ms. Bonamici. What do you think adequate time would be?
    Mr. Young. Well, I think it should be by probably this--
sometime in September this year is when it should be done. And 
I think if this Committee is interested in the result of that, 
then I'm sure that, you know, that the--NASA and the review 
board would be delighted to report back to you what we find.
    Ms. Bonamici. Thank you. And I'm certainly not going to 
speak for the Chairman and the Ranking Member, but I'm pretty 
convinced that this Committee would be very interested. Thank 
you, Mr. Chairman. I yield back.
    Chairman Smith. Thank you, Ms. Bonamici.
    And the gentlewoman from Arizona, Mrs. Lesko, is recognized 
for her questions.
    Mrs. Lesko. Thank you, Mr. Chairman.
    As I talked about yesterday, having a project 19 times over 
the original cost estimate is obviously very troubling, and I 
think it is a prime example of why taxpayers think that the 
Federal Government isn't spending taxpayer dollars wisely.
    I used to be in the construction business years ago, and 
when we signed a contract for a certain amount, and when you 
had changes, there were change orders that set forth how much 
extra it would cost. So I'm trying to understand how something 
can be 19 times over the project. How often do you communicate 
with NASA? Is there a contract similar to what I described? Do 
you go back to them and communicate with them on a regular 
basis and say, you know what, we had human error and there was 
a problem and now it's going to cost $2 million more, or we're 
changing the project because technology is more advanced now 
and we want to do this and it's going to cost, you know, $1 
billion more, or can you kind of explain the process? Because I 
need to understand how we got here.
    Mr. Bush. Yes, it's a very good question, and obviously for 
those who have not observed how something of this complexity 
gets created, a very, very spot-on question. It is the reason 
that this is a cost-type contract. We work side-by-side with 
NASA every single day. No significant decision is taken on the 
program unilaterally by us. So in terms of the degree of 
communication and coordination, it is exceptionally high. And 
NASA holds us to that transparency standard, that they do not 
want us unilaterally making decisions. And it is important that 
we be able to work hand-in-hand as we go through it simply due 
to the complexity.
    NASA has extraordinary people who have great experience 
working on so many different things. Their experience applies 
to this program, just as the experience of our scientists and 
engineers apply to the program. We have to have both, and so we 
have to be able to make decisions on it together and it is a 
daily interaction. It's not just, you know, sending letters 
back and forth. It is daily communication, daily interaction so 
that the best decisions can get made together.
    Mrs. Lesko. And so, Mr. Chair, either one of you can 
answer--so NASA gave you the okay at every step of the way for 
this extra cost, this extra time delay? Is that what you're 
saying?
    Mr. Bush. We would only take actions that NASA approves in 
that regard.
    Mr. Young. If I could add to your question, which also I 
think is very good, I think Wes' comments were right on. Space 
is not an awful lot different than what you described form your 
building experience. The most important thing I suspect in your 
business was to get the first bid correct, to get the price 
correct. I think if you look back through the history of this 
program and if you look at an earlier review group called the 
Casani team that reported out in 2010 I think or '11, they 
highlighted that NASA had done an incredibly poor job of cost 
estimating on this program, and I think that's true. So if--
again, in your business, if you don't start out with a good 
estimate, you're in trouble from day one.
    The second thing is that your customers I'm sure, as was 
mentioned, decide they want to remodel the kitchen, it's very 
important when that's done that that be costed, priced, and be 
added to the budget so--and it should not be--which it's easy 
to do. We're just going to add this requirement and we won't 
worry about what it costs, and then it's obviously going to 
cause a problem down the stream.
    The third thing is I suspect that you probably--I don't 
know the nature of the kind of stuff you were involved with, 
but you could envision that there was a very, very unusual 
staircase and that got underestimated as a cost to do it or the 
people who were doing it, it was stretching their ability to do 
it, so they ran into problems. So I think the analogy you're 
talking about--I'm really trying to just encourage you--is 
really quite good and it's not different than this. It's just 
that the multiplier is so much higher in doing this. And I'm 
not trying to excuse any of it, so don't read that into it. But 
the process is--just because it's a space activity, the process 
in my view is not a mystery. It's not significantly different 
than I'm sure your experience in the construction world.
    Chairman Smith. Okay. Does the gentlewoman yield back? 
Thank you, Mrs. Lesko.
    The gentleman from Virginia, Mr. Beyer, is recognized.
    Mr. Beyer. Thank you, Mr. Chairman.
    Mr. Bush, thank you for coming to be with us today.
    Mr. Young, thank you for bravely showing up the second day.
    I want to take issue with the, I think, overstated 
allegations of poor management. I mean, it's always easy to be 
a Monday-morning quarterback. I've been managing businesses, 
organizations, even an embassy over 45 years, and I just--
management is much like golf or baseball or bridge that it's 
not a game of perfect, that we make the best decisions we can 
on a minute-by-minute basis with the best advice we have, and 
sometimes, we're still going to get it wrong.
    So let me--I think it's really important to put the total 
cost of James Webb in perspective. So first, Administrator 
Bridenstine yesterday said the lifecycle cost of James Webb is 
$9.66 billion, so I added up the NASA budgets from 1996, when 
this was first suggested, through 2020, which is a little 
before launch, and that's $396.357 billion. Quick math, 2.4 
percent of the total NASA budget over the lifespan of JW is 2.4 
percent, and that's an understatement because that assumes JW 
Webb falls out of the sky in 2020 and it will actually be up 
there for a long, long time. So we're talking maybe one percent 
of NASA's budget.
    The second point, Mr. Bush, you were just a young systems 
engineer in 1996, but can you tell us how different the 
expectations of James Webb were in 1996 versus what NASA and 
the American public expects today before dark energy, before 
dark matter, before gravitational waves, before the state of 
science and cosmology is so very different? Is this even the 
same James Webb Telescope?
    Mr. Bush. Well, thank you, Congressman. It is a great 
question. When we originally conceived the telescope, we had no 
idea of all these discoveries that would occur in the time that 
has elapsed since then. And those discoveries themselves--and 
this is part of the great thing about space science--those 
discoveries set our ambitions a bit higher because we now know 
that there's a lot more we don't know and that we need to find 
out.
    So as we went through that process really over the course 
of the last decade, the period from around 2002 through the 
Casani report that Mr. Young mentioned, the vision for the 
mission continued to expand appropriately because if we are 
going to make this magnitude of investment, we ought to be able 
to get the most return for our Nation that we can through this 
investment.
    And while the original mission was very focused on sort of 
origins, you know, looking backwards in time, we did not know 
at that time about exoplanets, and now we've discovered 
thousands of these things. Your reference to dark matter and 
dark energy has really transformed the thinking around what the 
potential for scientific discovery might be with a system like 
Webb. And it is incredibly inspiring because if we can solve 
some of these tougher problems in physics, hopefully, we'll be 
able to translate that knowledge back into the engineering on 
Earth to make life a lot better for all of us humans. So this 
growth and the view of it is very, very important to understand 
because I think it goes to the real value of this program.
    Mr. Beyer. Which tees up my next question to Mr. Bush is 
$9.6 billion, is there any way to measure the value to humanity 
of what we will learn compared to that $9 billion investment?
    Mr. Bush. I have no idea how to do that. I wish I could. 
But I can give you a couple of reflections in that regard. You 
know, the work that our Nation did to put us ahead decades ago 
in physics where we were able to gain a better understanding of 
things like quantum mechanics, if we had not done that work, 
had we not really understood how things operate at the quantum 
level, this silly little device we all carry around with 
ourselves and rely on constantly throughout the day to know 
what's going on in the world and communicate with each other, 
we wouldn't have been able to do that. And if you think about 
value in that regard, the multiple of return is extraordinary. 
Those are the types of discoveries in physics that we hope are 
still in front of us, and we believe they are based on the 
insights we've been able to gain from Hubble. And it's really 
just, I think, beginning to tickle the imagination what Webb is 
going to enable us to do. So it's a very exciting potential.
    Mr. Beyer. I saved my hardest question for last. Both of 
you are MIT graduates I think, so do you guys believe in string 
theory?
    Mr. Bush. I'll let Mr. Young answer that.
    Mr. Young. I'll pass.
    Mr. Beyer. Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from California, Mr. Knight, is recognized.
    Mr. Knight. Thank you, Mr. Chairman, and I thank the 
gentlemen for being here today.
    I got to sit down with Scott Willoughby last week and ask 
him a lot of questions and kind of understand where Northrop is 
going and what his vision was. He was extremely excited. He was 
passionate about the future and passionate about when there are 
issues of how we get through these issues and how we move 
forward. And I think that's very important because what we're 
trying to do here is a mankind-changing event. I've said that a 
couple times, but I think that is exactly what we're trying to 
do.
    As I tell my son, we will be smarter in 100 years than we 
are today, whether we have faster computers or we have just 
attained more knowledge or we are able to do more things by our 
engineering knowledge and our knowledge of just academics. And 
so some of the things that we try and do, we find problems.
    Now, my question is how do you think that the IRB's report 
is? Do you agree with that, Mr. Bush? And I think I've heard 
all of the questions and all of the kind of what are we going 
to do, how do you do this, and all of that, I've heard all of 
that, but I want to hear if you agree with the IRB's report and 
if you think that that was a good, solid report on this issue.
    Mr. Bush. I absolutely believe that the IRB in many ways is 
a gift to this program. What the Independent Review Board did 
was, in addition to being very clear about specific matters and 
recommendations, which we fully agree with and which we are 
fully implemented in, what the IRB did I would say at a higher 
level was it was the big reminder that, as we make incremental 
decisions in this program, it all has to be about mission 
success.
    We all feel the intensity of cost, we all feel the 
intensity of schedule. We've had teams working on this program 
seven days a week for a long period of time. And with their--
this great reminder that everything is about mission success, 
it caused us to step back and ask were we doing everything the 
way we really needed to do in that regard? And we did make 
changes not just in terms of the specifics of the 
recommendations but with that broader perspective in mind.
    So I think it was an outstanding thing that NASA did to 
commission the Independent Review Board. I'm grateful to the 
members who participated on it. And we are fully supportive of 
implementing all of their recommendations.
    Mr. Knight. And I think it's another part in what we're 
trying to achieve. If we only know what we know or if we only 
do what we know how to do, we never achieve. And that's what 
happens when we try and take leaps.
    Administrator Bridenstine yesterday was trying to explain 
how the shield unfolds, how big it is, what it does, how it 
lowers the temperature so that it could get to the right 
temperature so that they could get the readings. And it went 
over my head. I'm sure it went over others or I would be 
ashamed that it only went over mine. But it really started you 
thinking how impressive this is and how important it is to get 
it right. Obviously, this is a fire and forget. This is a 
telescope that goes away and our--well, we don't have space 
shuttle anymore, but if we did, we can't go up and service it. 
We can't do those things.
     We have another telescope through NASA called SOFIA. It's 
on the back of a 747. It comes down, lands after a 10-hour 
flight. They do different things, they put things on it, and 
they do different experiments. James Webb is not that. James 
Webb is going to be a million miles away, and it's going to be 
looking at maybe the beginning of time, other galaxies, things 
that we have never even thought of.
    So that is my kind of one minute on this of how we do have 
to get this right, and when there are problems, how quickly we 
can get to the solution. And that's everything. That's no 
matter if you're doing something that is game-changing or just 
a new product that we're trying to improve on, it's how quickly 
we fix the problems. It's not the problem, it's how fast do we 
get from A to B.
    So thank you very much for being here today, and I look 
forward to the launch of the James Webb Space Telescope.
    Mr. Bush. Thank you.
    Chairman Smith. Thank you, Mr. Knight.
    The gentleman from New York, Mr. Tonko, is recognized.
    Mr. Tonko. Thank you, Mr. Chair, and welcome to our guests. 
Welcome, Mr. Bush, and welcome back, Mr. Young.
    Yesterday, I shared how inspired I was by the years leading 
up to the moon landing, and I want to express the same 
sentiment to you, Mr. Bush. I was in high school as we competed 
in the space race against the Soviet Union for spaceflight 
supremacy. And we had a passionate resolve to use science and 
engineering to beat our rivals and, after years of investing 
and innovating, we won. America led the world in this endeavor, 
and our nation was the first to land on the moon.
    The memories from that day will forever linger in my mind. 
It inspired me to believe that, with the will and necessary 
resources, America would lead the way in continued exploration, 
research, and development. It also inspired me to embrace an 
education in science and engineering. I'm excited by the James 
Webb Space Telescope and, even more so, I'm excited by the 
potential impact that this work and related discoveries can 
have on engaging the public and inspiring our next generation 
of scientists and engineers.
    Yesterday, I was asking the Administrator how NASA is 
utilizing Webb to engage the public and to build our next 
generation of scientists and engineers. Mr. Bush, you put it 
well in your testimony when you referred to this project as an 
incredible engineering feat. I have told students in the 
capital region of New York that I represent that, through STEM, 
you can be the scientist who learns new secrets about our 
universe, you can be that astronaut who lands on Mars, you can 
be that doctor or researcher who discovers the path to better 
ensure healthy passage on long spaceflights, or you can be that 
engineer who designs or invents a new technology or the 
spaceship that will take us far past our own galaxy.
    So, Mr. Bush, what is Northrop Grumman working on to engage 
the public at large on the inspirational undertakings?
    Mr. Bush. I really appreciate your perspective. You and I 
share a common motivation. The Apollo program is what inspired 
me to enter our industry and dedicate my career to this. And I 
know it has--it was the same way for so many others. And we 
want to continue to replicate that. We need that STEM talent. 
We need the innovators in our Nation to continue to focus on 
moving us ahead.
    So we've done many things with the space telescope to help 
support that. We have a large model of the space telescope that 
we utilize to take to a variety of different organizations and 
gatherings to enable scientists to have something in front of 
them to talk about as they work to inspire youth.
    We also sponsored the development of a film. It's called 
``Into the Unknown,'' and I would commend it to you if you have 
the opportunity and the interest in looking at it. We have 
played this film not only around the United States but around 
the world to let folks know what James Webb will be able to do, 
to expose them to some of the people who are working on it so 
they can see what real engineers and scientists do because 
oftentimes that's a challenge for those considering entering 
the STEM field. They don't actually know what engineers and 
scientists do. And when they're able to see it in the context 
of something that's so inspirational, our hope is that it will 
create more folks interested in pursuing these STEM careers as 
we go forward.
    And I have to give NASA a lot of credit here. NASA has I 
think probably the very best approach to using what it's doing 
to inspire our youth. And James Webb needs to continue to be a 
part of that. I think they've done a fabulous job of 
communicating effectively. The website, if you want to learn 
about it, you can go on that website and learn about it.
    I talk to a lot of the interns in our company, and part of 
the reason they're interested in coming to work with us and 
being a part of the things that we're doing is because they've 
heard about James Webb and they're inspired by it. So I think 
this is a fabulous opportunity for our Nation as we go forward 
to help us with much of the work that we need to do in 
motivating and leveraging STEM.
    Mr. Tonko. Thank you very much. I appreciate that approach. 
Anything in general that you're doing in the youngest of the 
student population in those great schools to engage them early 
on?
    Mr. Bush. Yes, and we've all I think come to realize that 
we unfortunately lose too many folks who could otherwise be 
interested in STEM actually in middle school, so your point is 
right on. We have to hit them in grade school early on, and so 
we have a whole variety of grade school programs across our 
nation largely leveraging our employees. Our employees are very 
motivated to engage in the STEM efforts whether it's at science 
fairs or actually taking the movie that I talked about ``Into 
the Unknown'' or even--we have little paper models that we use 
where students can actually try and go through the paper model 
build-up of what James Webb will be. So there's a variety of 
activities. NASA as well, as I said. It's not just us. NASA has 
been very proactive in this.
    Mr. Tonko. Thank you, gentlemen. And with that, Mr. Chair, 
I yield back.
    Chairman Smith. Thank you, Mr. Tonko.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Thank you very much, and I'm sorry that I 
cannot join you in this uplifting testimony that you've given 
today. Mr. Bush, I don't think that we should look to our young 
people and give them an example of being eight times over 
budget and twice as long in cost overruns. That's not what you 
tell our young people and encourage them to get involved in 
your industry.
    Let me just note--and again, this isn't your fault, okay? 
This is your--whoever was handling this in your company failed. 
They failed us and they failed the American people. And you can 
say ``is the Jim Webb telescope going to be worth all that 
money?'' That's not what the question is. The question is, ``is 
it worth all those other projects that we have been unable to 
fund in this Committee because you have failed your job?'' 
That's the question.
    Yes, I have supported telescopes and astronomy, and I think 
that deep space astronomy is a good thing. You've done a 
disservice to achieving those goals by not being able to do 
your job. Now, let me ask you, did Northrop make a profit last 
year, Northrop Grumman Corporation?
    Mr. Bush. You can read our Securities and Exchange 
Commission filings and see exactly how we did. We're very 
transparent in that regard.
    Mr. Rohrabacher. I didn't hear. Did you make a profit last 
year?
    Mr. Bush. Yes, sir.
    Mr. Rohrabacher. Okay. How much was your profit last year?
    Mr. Bush. It's filed in our Securities and Exchange 
Commission filings. I don't remember the exact number off the 
top of my head.
    Mr. Rohrabacher. Is it hundreds of millions or billions? 
What is it in?
    Mr. Bush. It's a very large number.
    Mr. Rohrabacher. Okay. You had a profit last year, and you 
have spent money acquiring things like Orbital ATK?
    Mr. Bush. Yes, sir.
    Mr. Rohrabacher. Okay. So Northrop really hasn't suffered 
at all from the fact that we now have billions of dollars being 
spent that we were not told we were going to have to spend, and 
thus, those other science projects are now not even being 
considered here. But Northrop, by putting us in that spot, went 
ahead and made a profit.
    Did they make any loss--obviously, your profit would have 
been higher had you been handling this project better--is there 
any loss at all that your company made by not being able to do 
this job as you contracted?
    Mr. Bush. So when we think about the economics of this 
project--and I've been clear about this before--this is not a 
particularly attractive economic proposition for our company, 
but that is not the objective for us at this point. We are 
focused on mission success. And clearly, you know, you can do 
the math a lot of different ways, but if you look at the 
resource we have invested in this program, both the capital 
resource and more importantly the human resource, our 
expectation is when we make that kind of investment on this 
magnitude of activity, that we would achieve a nice return. 
That will not be the case here.
    Mr. Rohrabacher. I understand you're not making a profit on 
this project now, and I think that is a factor that is going to 
try to influence people to try to make the right decisions and 
be tough on doing the right thing even though there's a lot of 
conflict going on over some decision among engineers or 
whatever. But the fact is that Northrop hasn't had to suffer a 
penalty. The fact is that it's not just Northrop, Mr. Chairman, 
that's our system. And I'm not deriding Northrop because what 
Northrop is doing is exactly like the rest of the aerospace 
industry when we get involved in these projects. Hubble was 
that way, as we noted yesterday.
    Mr. Young, is there something that we can do fundamentally 
to the process that's going to prevent that from happening? Is 
there some penalty that a company should have to pay if indeed 
they go way over budget and spend all this time? Otherwise, 
we're losing our ability to use that money on other projects, 
whether it's STEM projects or whatever projects they are. Mr. 
Young, what can we do?
    Mr. Young. Well, we talked about that a little bit. And I 
think that companies measure return on their programs in 
different ways. Financial is one. Reputation is an 
extraordinary motivator. And I think the people who are 
involved in these enterprises are clearly motivated by 
reputation, and that is the intent is to do a good job.
    If I could span my comments--and I don't want to talk you 
out of your comments, and I know I wouldn't be able to anyway, 
but----
    Mr. Rohrabacher. You know me.
    Mr. Young. But I think it's--there's no question in my mind 
being appropriately critical of events that have happened is 
appropriate, so I don't think there's an issue. I do think that 
it's important for all of us to recognize that there's a lot of 
work in front of us on JWST, and there's an extraordinary 
opportunity for a success that is almost mind-boggling as to 
what it is that we can learn. So what I'm really trying to do 
is I'm really trying--I'm probably speaking to myself as well 
as to you, but I'm really saying that being appropriately 
critical, tough love is a very important part of this--let me 
just finish--a very important part of this. But equally 
important is a recognition that we've kind of all got to pull 
together and make this thing an enormous success because the 
worst thing that could happen on top of where we are now is not 
to have a success. So I'm an advocate for being self-critical, 
I'm an advocate for tough love, but I'm also an advocate for 
saying today's the first day of the rest of our lives----
    Mr. Rohrabacher. I agree with you.
    Mr. Young. --and let's make this a success.
    Mr. Rohrabacher. I agree with you on that, but we should be 
changing the policy so that this doesn't happen like this 
again. And perhaps a company that does not meet its goals or 
what it said it could do, perhaps we shouldn't be giving them 
the next contract that comes down the line, whatever their bid 
is. Anyway, that's just a thought. Thank you very much, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentlewoman from Connecticut, Ms. Esty, is recognized 
for her questions.
    Ms. Esty. Thank you very much, both of you, for joining us 
here today and, Mr. Young, for your return visit.
    And I have to say, with a son who pursued astrophysics as 
his major who was inspired--had rocketry models in his room 
from the time he was about three and use that Hubble space data 
to develop a program working with folks at Yale to allow high 
school students to access the Hubble data to do exoplanet 
research, to make that data available for young people across 
the country, I can see just enormous opportunities with the 
James Webb Telescope.
    And I think we cannot forget, as you have both mentioned, 
the value proposition. We've had a lot of discussion about 
cost, and the cost matters, but I will tell you, taxpayers and 
all of us are way more concerned about value than cost at the 
end of the day.
    And I do think one of the big challenges we have is, given 
the rapid development and discoveries, as my colleague Mr. 
Beyer outlined from the first conception of the James Webb to 
where we are now, was unprecedented and not anticipated, those 
new avenues we would want to use this extraordinary device to 
research.
    So I do think--and my dad was in construction, too. This is 
not like building a home. It's not like building a bridge. It's 
not like building a brand-new bridge either because every 
aspect of this is changing, and what we're looking for is 
changing, too. So I think some of what we have to think about 
is for the value proposition, we absolutely want to include 
those new elements. For the mission success, we want to do 
that, too, and we need to make sure we have safety.
    So--but we do need to look at what we do to more 
appropriately cost because that is fair and proper, and that 
allows NASA and allows this Committee to do its work in terms 
of allocating, prioritizing other projects and that's what you 
hear concern about that.
    Mr. Bush, yesterday, Mr. Young suggested that maybe it 
would be wise for the Committee to look to the--or for Congress 
to insist that all the remaining dollars are aggregated and are 
not paid until after we have, you know, a full and complete 
checklist through mission success, so that's one question I'd 
like to add--ask.
    And another is, you know, how do we incentivize, identify, 
and correcting errors early? I mean, it's an ongoing problem in 
industry, but it's an issue in science, too. People don't like 
to come forward and say this isn't working. So we need to 
figure out ways to incentivize that.
    And the last thing I'll put out there is I think it would 
make sense for us to work some with folks both in Silicon 
Valley, as well as in the business community to think about how 
to structure contracts in a way that would better perhaps share 
that risk of identifying problems early, correcting, 
minimizing, taking ownership of human error. So maybe there's 
cost-sharing when there's human error or overruns. There would 
be cost-sharing of those, not just cost-plus, but there would 
be cost-sharing to provide an incentive to more appropriately--
and Mr. Young talked about how these contracts are bid and how 
they're incentivized. Everyone wants to get it on the cheap, 
but then we want it to be first-class when it's deployed. So we 
need to find a different way of, I think, structuring those 
contracts to enforce as much as possible honesty and 
anticipation and then tight controls and everyone taking 
ownership. So a few simple questions out there. Thank you.
    Mr. Bush. Well, thank you, Congresswoman. And let me just 
reiterate what I said in response to Chairman Smith's request 
along the same lines with respect to what Mr. Young mentioned 
yesterday. And we do believe it is an appropriate mechanism to 
make sure that we are all aligned on mission success.
    And we've been talking with NASA just recently about this, 
that we are willing to place all of the fee that is in front of 
us, as well as the fee we've already earned, into the mission 
success pool that will have that determination to make sure 
that it works. So we're all in on mission success and just want 
to confirm that again for you.
    With respect to this question about catching errors early, 
it goes back to, in my mind, the approach that is taken on 
programs to actually mitigate risk. How do you identify and 
quantify and then mitigate risk? So some of this is in the 
design process, but also it is in the testing programs.
    And I will just say broadly that in the rush oftentimes to 
go faster, there is an opportunity to make decisions to not 
test along the way, to wait until you have more things to 
together and test. And if you turn the clock back in the space 
industry, we didn't used to do that. We tended to test 
everything we possibly could at the lowest level of assembly. 
There was some criticism of that, particularly back in the 
1990s, that that was somehow unnecessary, that it was wasteful, 
and that it attributed--or created more cost on programs than 
perhaps was necessary. But--and that may be the case for some 
more simple types of designs where we've done the same thing 
many times over and we're not exploring or discovering new 
things.
    But a program of this complexity, I think if there are some 
important lessons learned on error discovery, it is reinforcing 
that more traditional approach of testing at the lowest level 
that you can and trying your best to break it at the lowest 
level that you possibly can so that the propagation of a later-
discovered error is not as significant.
    And back to the question about the independent review team 
and their work, that was a lot of their suggestion, to go back 
and look at what they were calling the embedded issues to make 
sure there wasn't something else that was skipped at a lower 
level that could come back and haunt the program later on. So 
we're well underway in that regard.
    I see we're just about out of time, so I'll limit my 
comments to that.
    Ms. Esty. Thank you. And, Mr. Chairman, since I wasn't able 
to ask yesterday, if Mr. Young could----
    Chairman Smith. Okay.
    Ms. Esty. --ask that same--answer that same question, 
whether we should rethink that testing at a lower level because 
that would be a time frame and a cost issue.
    Chairman Smith. Without objection, Mr. Young is going to be 
recognized to answer that question, although this is the first 
time I've ever heard of a carryover from one day to the next.
    Ms. Esty. No, I was noting how far over my colleagues were 
going, 2.5, 1 and 2 and 3 minutes over yesterday, so I never--I 
missed my five minutes being able to say. Thank you. I 
appreciate your indulgence.
    Chairman Smith. Please, Mr. Young, feel free to answer the 
question.
    Mr. Young. The--one of the things that struck us in our 
review process is the small problems can have such big 
implications for a system as complex and challenging as James 
Webb. And what that really says--and I'm kind of following what 
Wes said--is that it's important to know the pedigree of the 
hardware all the way through the process. And what that really 
means is that when the piece of hardware is first built, from 
that point on, each step of the process there's an appropriate 
test to make sure that you know the pedigree of the hardware. 
And if you do that all the way through the final assembly of 
this observatory, then you can be pretty confident that you 
don't have embedded problem.
    If I use the sunshield as an example, the sunshield was not 
tested as an individual item prior to being integrated with the 
spacecraft. Now, I don't know the full details of that, but I 
think that was a joint decision by NASA and Northrop Grumman, 
and I think it was derived primarily because there's only one 
sunshield, and that's the one that's going to fly, and so you 
don't want to wear it out so to speak. But had that test been 
done, my guess is that this fastener problem would have been 
found and the implication would have been much less.
    So only as an example that that was an embedded problem 
that went forward so we kind of lost the pedigree of the 
hardware, and then it got to a higher level of integration when 
the problem was discovered, and therefore, the implication is 
much larger. So there really is a process of knowing this 
pedigree all the way through that results in when the final 
observatory is assembled and tested, you could have pretty good 
confidence that you don't have embedded problems. And that's a 
great question, by the way.
    Chairman Smith. Thank you, Ms. Esty.
    Ms. Esty. Thank you. I appreciate it.
    Chairman Smith. The gentleman from Texas, Mr. Cloud, is 
recognized for his questions.
    Mr. Cloud. Thanks for being here. First of all, it's 
certainly not lost on me or I think anybody here that you're 
literally dealing with rocket science, and that's way beyond my 
pay grade. Our job, though, is to manage the checkbook, and I'm 
curious about the process, because we all agree that mission 
success is critical, also the scientific, humanitarian, 
national security implications, but we're presented with 
thousands of good ideas every day, and we have to manage that 
on a budget.
    So I'm curious about the bidding process, because it seems 
almost like it's a normal process in business that we bid a 
project, it gets approved, but we know that we'll actually be 
able to spend as much money as we want on it. You mentioned 
that everything went back to NASA and was approved, so does 
NASA think they have the right to spend more money on projects 
that Congress approves? It seems like that rebidding process or 
that extra work order, change order process that Mrs. Lesko 
talked about, should come back to Congress. Has that not 
happened?
    And I understand it seems like part of the low-bid process 
is part of the problem in the sense that we put a low-bid 
project and then we take on these great, awesome projects and 
try to move them forward. Is there anything we can do in the 
bidding process to remedy that?
    Mr. Bush. So I think that is a really good question and Mr. 
Young talked about this a little bit earlier. I would simply 
reinforce what he said. We have found that the customer 
communities that implement an independent cost estimating 
process as a part of their source selection activities tend to 
end up with budgetary strategies and management strategies that 
are a bit more robust against the inevitable variability of 
some of these complex programs.
    And we can turn the clock way back because we're talking 
about Webb. you know, where a contract decision was made I 
believe it was in 2002, but a lot has changed in acquisition 
strategies since then both at NASA, as well as some other 
customer communities. And the use of independent cost 
estimating, when done well, often results in contractors being 
selected who did not bid the lowest cost because the customer 
community then has the opportunity to evaluate bids against 
this broader analytic of what it should cost to do a job. And I 
think that's a healthy practice. I endorse its use.
    And, Mr. Young, I would defer to you if you have some other 
things to add to it.
    Mr. Young. No, I don't. I mean, I think that's really what 
I would advocate. I don't mean this quite the way it sounds, 
but I would recommend that cost proposals or cost-plus 
contracts never be opened. I mean, I think they only, you know, 
confuse the situations. Independent cost estimating is really 
the quality of the process--
    Mr. Cloud. It seems to me, too, like putting together some 
sort of system where we could rate government contractors based 
on past performance of on-time delivery and on budget might be 
something to work into that project.
    One other question, you testified that the sunshield was 
more difficult than was thought, and I can appreciate that. 
Maybe Mr. Young touched on this in the last question, but in 
the original bid, my understanding is that the sunshield was 
promoted as existing technology, yet we're finding out that a 
lot of the cost overruns had to do with them not being existing 
technology. Could you clarify?
    Mr. Bush. I can't speak to what may have been written some 
many years ago, but I would be very clear that the sunshield is 
a new invention and a new development, and as we've gone 
through it, it has been exciting to see how those developments 
have occurred. If you look at each of the levels of the 
sunshield, the membranes, they're about the thickness of a 
human hair, Kapton, silicon-coated. It is a phenomenal class of 
technology. It will have a lot of other applications over time, 
but this has clearly been a new development.
    Mr. Young. I think if I would add, you know--
    Mr. Cloud. Thank you, Mr. Chairman.
    Chairman Smith. Mr. Cloud, if you will, will you yield the 
balance----
    Mr. Cloud. Yes.
    Chairman Smith. --of your time to me?
    Mr. Cloud. Yes.
    Chairman Smith. Okay. Thank you. I've thought of another 
question, Mr. Bush, for you. In Mr. Young's report, there were 
several instances of preventable human error that were 
pinpointed that led to millions of dollars of cost overruns. 
I'm just curious if those employees are still employed by 
Northrop Grumman.
    Mr. Bush. So we look very carefully each time we have an 
error to make sure we understand what the challenge is and what 
the issue is. And given the complexity--and yes, there have 
some--been some mistakes. But to answer your question very 
directly, with respect to the mistakes, we have not found 
instances of the type of behavior that were contributory to 
those mistakes that were deemed----
    Chairman Smith. I mean, you had a situation----
    Mr. Bush. --to be willful conduct.
    Chairman Smith. --where a solvent was used that was the 
wrong solvent that cost $100 million more of overruns. There 
had to be some actual human individual that applied that 
solvent. My question is are those types of individuals who 
committed the preventable human error still employed by 
Northrop Grumman?
    Mr. Bush. If we find issues with conduct that we think is 
willful misconduct, we act on it.
    Chairman Smith. Okay. But----
    Mr. Bush. In the cases where the individuals make honest 
errors----
    Chairman Smith. Right. So no one has lost----
    Mr. Bush. --then we want----
    Chairman Smith. No one has lost their----
    Mr. Bush. --we want them to learn.
    Chairman Smith. No one has lost their job because of any 
cost overrun to date?
    Mr. Bush. I would not say that.
    Chairman Smith. Okay.
    Mr. Bush. I'm talking about these individuals 
specifically----
    Chairman Smith. Okay. Well, how many people have lost their 
job?
    Mr. Bush. Are you talking specifically to this program?
    Chairman Smith. Yes, JWST.
    Mr. Bush. I don't have a number off the top of my head.
    Chairman Smith. It's more than zero?
    Mr. Bush. I can't confirm that for you here today. I'm 
simply telling you how we approach assessing what----
    Chairman Smith. No, no, I know. Of course, that wasn't 
responsive, but my question is--you do not know as CEO whether 
any employees lost their job because of the human errors?
    Mr. Bush. With respect to the mistakes that we're talking 
about here today, I do not recall any losing their jobs.
    Chairman Smith. Okay. And then going back to the question 
about profit, what was Northrop's profit last year in 2017, 
just to the nearest tenth of a billion?
    Mr. Bush. We can get you that for the record.
    Chairman Smith. I'm sorry?
    Mr. Bush. We can provide that to you for the record.
    Chairman Smith. Okay.
    Mr. Bush. I don't want to make a financial mistake----
    Chairman Smith. Isn't it----
    Mr. Bush. --by not recalling something exactly.
    Chairman Smith. Isn't it a matter of public record?
    Mr. Bush. Yes, sir. That's why we can easily get it to you 
for the record.
    Chairman Smith. Okay. But why won't you tell us today what 
it is?
    Mr. Bush. I don't have it in front of me.
    Chairman Smith. Well, do you not? How could a CEO not know 
what the profit of his company was last year?
    Mr. Bush. We will provide that to you for the record.
    Chairman Smith. And you say it's public information but you 
won't----
    Mr. Bush. Yes, sir.
    Chairman Smith. --tell us today? You just don't want to say 
what the figure is?
    Mr. Bush. No, I just want to make sure I get it right.
    Chairman Smith. Well, could it have been $6 billion in 
2017?
    Mr. Bush. If that's what the filing says, then it will be 
exactly accurate.
    Chairman Smith. Okay. But why would you not tell us? I just 
don't understand. You've talked about transparency. You've 
talked about willingness to give us information. Why wouldn't 
you be willing to tell us what the profit is or what----
    Mr. Bush. I'm perfectly willing to tell you. I just want to 
make sure we get it exactly right.
    Chairman Smith. But you as CEO----
    Mr. Bush. I'm very careful about financial reporting----
    Chairman Smith. You--okay. How about this? You as CEO, what 
was the profit last year to the nearest billion? Do you know 
that, and are you willing to say it?
    Mr. Bush. Mr. Chairman, as I said, I would be happy to 
provide that to you with----
    Chairman Smith. Okay.
    Mr. Bush. --high precision.
    Chairman Smith. But you--okay. And you admitted it's public 
record, but you will not say the figure in front of us today, 
is that right, even to the nearest billion? And you're CEO?
    Mr. Bush. I'm happy to provide it and----
    Chairman Smith. Okay.
    Mr. Bush. --make it very, very public.
    Chairman Smith. All right. Thank you all for being here 
today, and we stand adjourned.
    Mr. Bush. Thank you.
    [Whereupon, at 11:37 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Additional Material for the Record




                       Document submitted by NASA
                       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                       


                 Document submitted by Northrop Grumman
                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                 


                                 <all>
</pre></body></html>
